<html>
<title> - WHERE ARE THEY NOW: INDIAN PROGRAMS ON THE GAO HIGH RISK LIST</title>
<body><pre>[Senate Hearing 116-76]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 116-76

     WHERE ARE THEY NOW: INDIAN PROGRAMS ON THE GAO HIGH RISK LIST

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 12, 2019

                               __________

         Printed for the use of the Committee on Indian Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 12, 2019...................................     1
Statement of Senator Cortez Masto................................    49
Statement of Senator Hoeven......................................     1
Statement of Senator Lankford....................................    44
Statement of Senator Tester......................................    52
Statement of Senator Udall.......................................     2

                               Witnesses

Dearman, Tony, Director, Bureau of Indian Education, U.S. 
  Department of the Interior.....................................    27
    Prepared statement...........................................    29
Farb, Jessica, Director, Health Care Team, U.S. Government 
  Accountability Office..........................................     4
    Prepared statement...........................................     6
LaCounte, Darryl, Acting Director, Bureau of Indian Affairs, U.S. 
  Department of the Interior.....................................    31
    Prepared statement...........................................    33
Weahkee, Rear Admiral Michael, Principal Deputy Director, Indian 
  Health Service, U.S. Department of Health and Human Services...    36
    Prepared statement...........................................    38

                                Appendix

Response to written questions submitted by Hon. Catherine Cortez 
  Masto to:
    Tony Dearman.................................................    59
    Jessica Farb.................................................    60
    Darryl LaCounte..............................................    59
    Rear Admiral Michael Weahkee.................................    61
Response to written questions submitted by Hon. Tom Udall to:
    Tony Dearman.................................................    64
    Rear Admiral Michael Weahkee.................................    65

 
     WHERE ARE THEY NOW: INDIAN PROGRAMS ON THE GAO HIGH RISK LIST

                              ----------                              


                        TUESDAY, MARCH 12, 2019


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:47 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. I call this oversight hearing 
to order.
    We are having votes on the Floor right now. That is why I 
think it will be a few minutes before more of our Committee 
members show up. But we are going to get started, so that the 
Vice Chairman and myself can take turns going back and filling 
out the votes as well. We appreciate your bearing with us 
through that process.
    I also want to thank the members for accommodating my 
schedule and others so that we could have the hearing this 
afternoon instead of tomorrow as originally scheduled. Thank 
you to the members for agreeing to do that.
    Today, the Committee will examine the Government 
Accountability Office report on High Risk Programs published on 
March 6th, 2019 as well as the follow-up from the 2017 High 
Risk List. Unfortunately, the three Indian programs that we 
will discuss today are the same ones we have had on the list 
for the past two years. We are working very hard to make sure 
they get the issues identified addressed.
    This is the fourth hearing for the Committee regarding high 
risk Indian programs. Three hearings were held in the 115th 
Congress, making today's hearing the first in the new Congress. 
I expect we will have more as we continue to work on 
outstanding issues.
    Every two years during the start of a new Congress, the 
Government Accountability Office publishes a report listing 
Federal programs deemed high risk. These programs are given the 
designation of high risk due to their vulnerability to abuse, 
fraud, waste or mismanagement. Three Federal Indian programs, 
the Bureau of Indian Education, Indian Energy within the Bureau 
of Indian Affairs, and the Indian Health Service have again 
been placed on the 2019 High Risk List.
    According to the Government Accountability Office, as of 
December 2018, these programs have a total of 32 outstanding 
recommendations. To monitor a Federal program's progress on the 
High Risk List, the Government Accountability Office provides 
ratings of not met, partially met, or met.
    According to the latest list, each of the three programs 
has partially met the five areas of criteria needed to be 
addressed to initiate removal from the list. During today's 
hearing, I expect to hear from each of the witnesses concerning 
where progress has been made and what needs to be done in order 
for the three programs to meet all of the criteria.
    As Chairman of the Committee, I remain steadfast to holding 
these Federal agencies accountable to the millions of American 
Indians and Alaska Natives in the Country that receive services 
such as education, health care and advancing Indian energy 
development projects. The functioning of the Bureau of Indian 
Affairs, the Bureau of Indian Education and the Indian Health 
Service is important to many, including this Committee, which 
has oversight authority to ensure the agencies are meeting 
their purposes without abuse, fraud, waste or mismanagement.
    Today's hearing is timely with the recent news of former 
IHS doctor Stanley Patrick Weber's conviction and sentencing in 
Federal District Court in Montana for child sex abuse and the 
upcoming start of his second trial in South Dakota on the same 
charges. These events must be addressed and we need to get to 
the bottom of this ordeal. Indian Country deserves better.
    As I have mentioned before, I will continue to hold these 
oversight hearings until each Indian program comes off the High 
Risk List. I urge all witnesses today to continue working 
together in addressing the remaining open recommendations.
    I welcome the witnesses today. I look forward to discussing 
the remaining GAO recommendations and the timeliness of getting 
them addressed.
    Before we hear from witnesses, I will turn to Vice 
Chairman, Senator Udall, for his opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for scheduling 
today's hearing to discuss the status of Indian programs on the 
GAO High Risk List. I appreciate your follow-through on this 
important topic.
    Last Congress, our Committee held three hearings on the GAO 
High Risk Report for Indian Programs. Each hearing demonstrated 
that the Federal Government must do better to provide trust and 
treaty-based services to American Indian and Alaska Native 
tribes.
    The GAO reports that high risk Indian programs have made 
some notable progress in addressing its open recommendations. 
However, members of this Committee and tribal leaders are still 
concerned that this progress is not translating into real 
change.
    Factors such as underfunding, management accountability, 
and agency transparency continue to pose barriers to efforts by 
the IHS, the BIE, and the BIA to address high risk areas. As a 
practical matter, it is reasonable to ask how effective are 
IHS, BIE and BIA reforms in response to GAO's High Risk 
designation.
    As the Ranking Member on the Interior Appropriations 
Subcommittee, I understand that underfunding has a direct 
impact on nearly every Indian program, but that impact is 
particularly acute for programs on the High Risk List. In my 
home State of New Mexico, there are still serious facility and 
resource issues at a number of BIE, IHS clinics and BIA 
programs. I have fought to increase funding at all three 
agencies. But without continued meaningful investments and 
adequate appropriations, BIE, IHS, and BIA reforms will be less 
effective.
    At the same time, recent high profile events at the BIE and 
the IHS raise serious questions about management accountability 
and transparency. At the BIE, the Bureau has a string of 
unanswered congressional letters, school closures due to 
asbestos, and the lack of compliance with Federal education 
laws. It is to the point where I have had to call in BIE and 
BIA leadership to submit weekly updates directly to my office.
    At the IHS, the Weber incident has alarmed many. To speak 
frankly, it has sickened me. For over 20 years, Mr. Weber used 
his position of trust and authority as an IHS doctor to prey on 
young, innocent victims. What he did is a travesty and what IHS 
didn't do intervene to protect Native children who were 
patients is unconscionable.
    Even though Mr. Weber has been convicted and sentenced for 
his crimes in Montana and awaits trial in another Federal court 
for similar crimes, questions remain. Who in IHS leadership 
failed to document and remove Weber from his position within 
the Service? To that end, Chairman Hoeven and I sent a letter 
to the HHS Office of Inspector General, asking it to 
investigate whether any current or former IHS staff were 
complicit in, or had knowledge or involvement with Mr. Weber's 
misconduct.
    While we wait for concrete answers, I expect IHS leadership 
here today to commit to management reform that ensures all 
future allegations of abuse by medical professionals at IHS 
facilities are properly investigated, reports against IHS 
employees who are a danger to patients are not swept under the 
rug, whistleblowers do not fear for their reputations or their 
livelihoods.
    Above all, today's hearing must be more than just hearing 
about progress on GAO's recommendations. I need to see evidence 
of a cultural shift to improve accountability at the IHS, the 
BIE, and the BIA, and I need to see a commitment to 
transparency ensuring the Federal Government is upholding trust 
and treaty responsibilities.
    Finally, I will close by noting that the Committee's newly-
adopted Rule 4(b), this rule states that if the Administration 
misses the Committee's 48-hour deadline for submission of 
testimony, the Administration witness must state on the record 
why the testimony was late.
    Thank you, Admiral Weahkee and Ms. Farb, for submitting 
your testimony on time. But Mr. Dearman, and Mr. LaCounte, 
please be prepared to start your testimony with an explanation 
why you did not comply with the Committee's rule.
    I thank you, Mr. Chairman. Thank you to our panel for 
joining us.
    The Chairman. I would like to thank the Ranking Member.
    I, too, want to comment on the BIA not submitting their 
testimony in a timely way. I was waiting for the introductions 
to do that. But both for Director LaCounte and Director 
Dearman, I would ask, in your remarks, please indicate why the 
testimony wasn't here 48 hours prior as required under the 
Committee's rules. I would also like a commitment from you that 
in the future, it will be here 48 hours prior to your 
testimony. You can respond to those as a part of your 
testimony.
    With that, again, I appreciate all of you being here. Let's 
begin with Ms. Farb, Director of the Health Care Team, 
Government Accountability Office here in D.C.
    Ms. Farb.

  STATEMENT OF JESSICA FARB, DIRECTOR, HEALTH CARE TEAM, U.S. 
               GOVERNMENT ACCOUNTABILITY OFFICE; 
            ACCOMPANIED BY FRANK RUSCO. ENERGY GROUP

    Ms. Farb. Thank you.
    Chairman Hoeven, Vice Chairman Udall and members of the 
Committee, thank you for the opportunity to discuss the 
progress the agencies within the Department of the Interior and 
the Department of Health and Human Services have made since GAO 
added management of programs that serve tribes and their 
members to its High Risk List in 2017. The High Risk List is 
intended to help inform congressional oversight and improve 
government performance by calling attention to agencies and 
programs that are vulnerable to mismanagement or are in need of 
change.
    Last week, GAO issued our updated report for 2019. In 
summary, officials from Indian Affairs, BIE, BIA, and IHS 
continue to express their commitment to addressing issues that 
led to the high risk designation. Since we last testified 
before this Committee in June 2018, we have met with agency 
leaders numerous times and continue to work with each agency to 
identify actions they are taking or plan to take to address 
GAO's concerns.
    For our most recent High Risk Report, we determined that 
these agencies have demonstrated some progress to partially 
meet each of the criteria for removing a high risk designation. 
However, additional progress is needed for the agencies to 
fully address these criteria and related management weaknesses.
    Since September 2011, GAO has made more than 50 
recommendations to improve Federal programs serving tribes and 
their members. Thirty-one of these recommendations and one 
matter for congressional consideration are still open. The 
distribution of these recommendations by issue area, education, 
energy, and health care is shown in the figure on display to my 
right. As you can see, 20 recommendations have been closed. In 
the past few days, the agencies have provided new information 
and documentation that may lead to the closure of additional 
recommendations.
    GAO continues to audit these programs and if deficiencies 
are identified, there will likely be additional recommendations 
to address. It is important to note that GAO's recommendations 
identified in this high risk area reflect management weaknesses 
at the Federal level. They do not reflect on the performance of 
programs administered by tribes.
    Furthermore, closing recommendations is not enough to get 
off the High Risk List. Agencies need to identify and address 
the root causes of management shortcomings. Since 1990, 26 
areas have been removed from the High Risk List. These areas 
were on the list for nine years on average after they were 
first designated.
    As our most recent high risk report indicates, over the 
past several months the agencies have demonstrated progress to 
partially, but not fully meet, each of the five criteria for 
removing a high risk designation. These include leadership 
commitment, capacity, developing an action plan, monitoring and 
demonstrated progress. Our current assessment of this is shown 
in the figure on display to my right.
    First, in the area of leadership commitment, leadership at 
all of the agencies have been receptive to meeting with GAO 
teams regularly and working to develop a better understanding 
of what needs to be done to get off the High Risk List. Some of 
the agencies have also formed working groups or advisory panels 
to assist with strategic direction and implementation of our 
recommendations. However, all of the agencies have faced some 
issues attaining stable, permanent leadership.
    Second, to address capacity issues, BIE hired a full-time 
program analyst to coordinate its working group and help 
oversee implementation of our recommendations on Indian 
education. In February 2019, BIA officials told us they had 
drafted a long-range workforce plan to ensure BIA has staff in 
place to meet its organizational needs. IHS has established a 
new Office of Quality which is expected to develop and monitor 
agency-wide quality of care standards.
    However, both BIE and IHS continue to face significant 
workforce challenges. For example, although BIE is hiring new 
staff, about 50 percent of all BIE positions have not been 
filled according to recent documentation. Furthermore, GAO's 
August 2018 report found that IHS's average overall vacancy 
rate for clinical care providers was 25 percent.
    With regard to action plans, we found that BIE and IHS both 
completed strategic plans, BIE in August 2018 and IHS just this 
past month. These plans will provide both agencies with goals 
and strategies for improving management and oversight of Indian 
education and health care programs.
    In terms of monitoring, we found that Indian Affairs has 
taken action to monitor corrective measures that address 
weaknesses with safety at BIE Schools. IHS has taken steps to 
develop patient experience of care surveys as well as standards 
for tracking patient wait times.
    Finally, despite the increasing number of recommendation 
closures, substantial work remains in several key areas, 
including accountability for BIE school safety and school 
construction projects, continued monitoring of review and 
response times for oil and gas leases and agreements, and 
persistent monitoring of patient wait time and quality metrics 
at IHS. Sustained focus by Interior and HHS in fully 
implementing these recommendations and continued oversight by 
Congress are essential to achieving progress.
    Chairman Hoeven, Vice Chairman Udall and members of the 
Committee, this completes my prepared statement. My colleagues 
and I would be pleased to respond to any questions you may 
have.
    [The prepared statement of Ms. Farb follows:]

 Prepared Statement of Jessica Farb, Director, Health Care Team, U.S. 
                    Government Accountability Office
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee:
    I am pleased to be here today to discuss the status of actions by 
the Departments of the Interior (Interior) and Health and Human 
Services (HHS) to address issues that led to the high-risk designation 
we made related to the federal management of programs that serve tribes 
and their members. We added this area to our High-Risk List in February 
2017 because of our concern about the ability of agencies within these 
departments to manage (1) education and health care programs that serve 
tribes and their members and (2) Indian energy resources. \1\ In 
particular, our prior work found numerous weaknesses in how Interior's 
Bureau of Indian Education (BIE) and Bureau of Indian Affairs (BIA)--
under the office of the Assistant Secretary-Indian Affairs (Indian 
Affairs)--managed education and energy resources and how HHS's Indian 
Health Service (IHS) managed health care services. We reported that 
these management weaknesses jeopardized the health and safety of 
American Indians served by these programs and limited opportunities for 
tribes and their members to use energy resources to create economic 
benefits and improve the well-being of their communities. We expressed 
continued concerns about challenges faced by these agencies in our 2019 
High-Risk Report. \2\
---------------------------------------------------------------------------
    \1\ GAO, High-Risk Series: Progress on Many High-Risk Areas, While 
Substantial Efforts Needed on Others, GAO-17-317 (Washington, D.C.: 
Feb. 15, 2017).
    \2\ GAO, High-Risk Series: Substantial Efforts Needed to Achieve 
Greater Progress on High-Risk Areas, GAO-19-157SP (Washington, D.C.: 
Mar. 6, 2019).
---------------------------------------------------------------------------
    In 2016, Congress found in the Indian Trust Asset Reform Act that 
``through treaties, statutes, and historical relations with Indian 
tribes, the United States has undertaken a unique trust responsibility 
to protect and support Indian tribes and Indians.'' \3\ As further 
stated in that act, the fiduciary responsibilities of the United States 
to Indians arise in part from commitments made in treaties and 
agreements, in exchange for which Indians surrendered claims to vast 
tracts of land. The act notes that this history of federal-tribal 
relations and understandings has benefitted the people of the United 
States and established ``enduring and enforceable [f]ederal obligations 
to which the national honor has been committed.'' Agencies can improve 
the efficiency of federal programs under which services are provided to 
tribes and their members by making improvements to their management and 
oversight of such programs.
---------------------------------------------------------------------------
    \3\ Pub. L. No. 114-178,  101, 130 Stat. 432 (2016)(codified at 25 
U.S.C.  5601).
---------------------------------------------------------------------------
    Such improvements would be consistent with the expressed view of 
Congress as to the federal government's trust responsibilities and 
would strengthen confidence in the performance and accountability of 
the federal government.
    The focus of this high-risk area is on management weaknesses within 
federal agencies that administer programs that serve tribes and their 
members. However, not all federal programs are administered by federal 
agencies. In accordance with federal Indian policy that recognizes the 
right of Indian tribes to self-government and that supports tribal 
self-determination, a number of tribes have elected to take over the 
administration of certain federal programs and services from BIA, BIE, 
and IHS. Our recommendations identified in the high-risk area are 
neither reflective of the performance of programs administered by 
tribes nor directed at any tribally operated programs and activities.
    When we added the federal management of programs that serve tribes 
and their members to our High-Risk List in February 2017, we cited 39 
open recommendations related to this high-risk area. Since then, we 
added 13 recommendations in two new reports on BIE school safety and 
construction, and a report on IHS provider vacancy rates. \4\ Overall, 
as of March 2019, 31 recommendations remain open.
---------------------------------------------------------------------------
    \4\ See GAO, Indian Affairs: Further Actions Needed to Improve 
Oversight and Accountability for School Safety Inspections, GAO-17-421 
(Washington, D.C.: May 24, 2017); GAO, Indian Affairs: Actions Needed 
to Better Manage Indian School Construction Projects, GAO-17-447 
(Washington, D.C.: May 24, 2017); and GAO, Indian Health Service: 
Agency Faces Ongoing Challenges Filling Provider Vacancies, GAO-18-580 
(Washington, D.C.: Aug. 15, 2018).
---------------------------------------------------------------------------
    My statement today, which is largely based on our March 2019 High-
Risk Series: Substantial Efforts Needed to Achieve Greater Progress on 
High-Risk Areas, will address actions taken and progress made by these 
agencies to address the five criteria we use for determining whether to 
remove a high-risk designation (leadership commitment, capacity, action 
plan, monitoring, and demonstrated progress). For this statement, we 
also drew on findings from our reports issued from September 2011 
through August 2018 and updated that work by reviewing agency 
documentation and interviewing agency officials. To conduct our 
previously issued work on which this testimony draws, we reviewed 
relevant federal laws, regulations, and policies; reviewed agency 
documentation; and interviewed tribal, federal, and industry officials, 
among others. More detailed information on the scope and methodology of 
our work can be found in each of the reports cited in our High-Risk 
Series reports. \5\
---------------------------------------------------------------------------
    \5\ For a list of related reports, see GAO-17-317 and GAO-19-157SP.
---------------------------------------------------------------------------
    We conducted the work on which this statement is based in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
Background
    Since 1990, generally every 2 years at the start of a new Congress, 
we call attention to agencies and program areas that are high risk due 
to their vulnerability to mismanagement or that are most in need of 
transformation. \6\ Our high-risk program is intended to help inform 
the congressional oversight agenda and to improve government 
performance. Since 1990, a total of 62 different areas have appeared on 
the High-Risk List. Of these, 26 areas have been removed, and 2 areas 
have been consolidated. On average, the high-risk areas that were 
removed from the list had been on it for 9 years after they were 
initially added.
---------------------------------------------------------------------------
    \6\ In our High-Risk List, we also call attention to agencies and 
program areas that are high risk due to fraud, waste, and abuse.
---------------------------------------------------------------------------
    Our experience with the High-Risk List over the past 29 years has 
shown that the key elements needed to make progress in high-risk areas 
are top-level attention by the administration and agency leaders 
grounded in the five criteria for removing high-risk designations, 
which we reported on in November 2000. \7\ When legislative and agency 
actions, including those in response to our recommendations, result in 
our finding significant progress toward resolving a high-risk problem, 
we will remove the high-risk designation. However, implementing our 
recommendations alone will not result in the removal of the 
designation, because the condition that led to the recommendations is 
symptomatic of systemic management weaknesses. In cases in which we 
remove the high-risk designation, we continue to closely monitor the 
areas. If significant problems again arise, we will consider reapplying 
the high-risk designation. The five criteria for removing high-risk 
designations are as follows:
---------------------------------------------------------------------------
    \7\ GAO, Determining Performance and Accountability Challenges and 
High Risks, GAO-01-159SP (Washington, D.C.: November 2000).

  <bullet> Leadership commitment. Demonstrated strong commitment and 
---------------------------------------------------------------------------
        top leadership support to address the risks.

  <bullet> Capacity. Agency has the capacity (i.e., people and other 
        resources) to resolve the risk(s).

  <bullet> Action plan. A corrective action plan that defines the root 
        causes, identifies solutions, and provides for substantially 
        completing corrective measures in the near term, including 
        steps necessary to implement solutions we recommended.

  <bullet> Monitoring. A program has been instituted to monitor and 
        independently validate the effectiveness and sustainability of 
        corrective measures.

  <bullet> Demonstrated progress. Ability to demonstrate progress in 
        implementing corrective measures and in resolving the high-risk 
        area.

    These five criteria form a road map for efforts to improve and 
ultimately address high-risk issues. Addressing some of the criteria 
leads to progress, and satisfying all of the criteria is central to 
removal from the list. Figure 1 shows the five criteria for removal for 
a designated high-risk area and examples of agency actions leading to 
progress toward removal.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Importantly, the actions listed are not ``stand alone'' efforts 
taken in isolation of other actions to address high-risk issues. That 
is, actions taken under one criterion may be important to meeting other 
criteria as well. For example, top leadership can demonstrate its 
commitment by establishing a corrective action plan, including long-
term priorities and goals to address the high-risk issue and by using 
data to gauge progress--actions that are also vital to addressing the 
action plan and monitoring criteria. When an agency meets all five of 
these criteria, we can remove the agency from the High-Risk List. We 
rate agency progress on the criteria using the following definitions:

  <bullet> Met. Actions have been taken that meet the criterion. There 
        are no significant actions that need to be taken to further 
        address this criterion.

  <bullet> Partially met. Some, but not all, actions necessary to meet 
        the criterion have been taken.

  <bullet> Not met. Few, if any, actions toward meeting the criterion 
        have been taken.

Agencies Made Some Progress Addressing the Management Weaknesses That 
        Led to the 2017 High-Risk Designation
    Officials from Indian Affairs, BIE, BIA, and IHS expressed their 
commitment to addressing the issues that led to the high-risk 
designation for federal management of programs that serve tribes and 
their members. Since we last testified before this committee on June 
13, 2018, we met with agency leaders and worked with each agency to 
identify actions the agencies took or plan to take to address the 
concerns that contributed to the designation. \8\ We determined that 
Indian Affairs, BIE, BIA, and IHS demonstrated some progress to 
partially meet each of the criteria for removing a high-risk 
designation. However, additional progress is needed for the agencies to 
fully address the criteria and related management weaknesses.
---------------------------------------------------------------------------
    \8\ GAO, High Risk: Agencies Need to Continue Efforts to Address 
Management Weaknesses of Federal Programs Serving Indian Tribes GAO-18-
616T (Washington D.C.: June 13, 2018).
---------------------------------------------------------------------------
Overall Rating for Improving Federal Management of Programs That Serve 
        Tribes and Their Members
    As we reported in the March 2019 high-risk report, when we applied 
the five criteria for High-Risk List removal to each of the three 
segments--education, energy, and health care--we determined that Indian 
Affairs, BIE, BIA, and IHS have each demonstrated some progress. 
Overall, the agencies have partially met the leadership commitment, 
capacity, action plan, monitoring, and demonstrated progress criteria 
for the education, health care, and energy areas. However, the agencies 
continue to face challenges, particularly in retaining permanent 
leadership and a sufficient workforce.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The following is a summary of the progress that Indian Affairs, 
BIE, BIA, and IHS have made in addressing the five criteria for removal 
from the High-Risk List.
Leadership Commitment
    To meet the leadership commitment criterion for removal of a high-
risk designation, an agency needs to have demonstrated strong 
commitment and top leadership support to address management weaknesses. 
The following examples show actions Indian Affairs, BIE, BIA, and IHS 
took to partially meet the leadership commitment criterion.

  <bullet> Education. Indian Affairs' leaders have demonstrated 
        commitment to addressing key weaknesses in the management of 
        BIE schools in several ways. For example, the BIE Director 
        formed an internal working group, convened meetings with other 
        senior leaders within Indian Affairs, and publicly stated that 
        his agency is committed to ensuring implementation of our 
        recommendations on Indian education. In addition, the BIE 
        Director and other Indian Affairs leaders and senior managers 
        have met with us frequently to discuss outstanding 
        recommendations, actions they have taken to address these 
        recommendations, and additional actions they could take. We 
        also met with the new Assistant Secretary-Indian Affairs, who 
        expressed her commitment to supporting the agency's efforts to 
        address weaknesses in the management of BIE schools. However, 
        it is important that Indian Affairs leaders be able to sustain 
        this level of commitment to solving problems in Indian 
        education. Since 2012, there have been seven Assistant-
        Secretaries of Indian Affairs and five BIE Directors. There has 
        also been leadership turnover in other key offices responsible 
        for implementing our recommendations on Indian education. We 
        have previously reported that leadership turnover hampered 
        Indian Affairs' efforts to make improvements to Indian 
        education. \9\ We believe that ensuring stable leadership and a 
        sustained focus on needed changes is vital to the successful 
        management of BIE schools.
---------------------------------------------------------------------------
    \9\ GAO, Indian Affairs: Better Management and Accountability 
Needed to Improve Indian Education, GAO-13-774 (Washington, D.C.: Sept. 
24, 2013).

  <bullet> Energy. BIA officials demonstrated leadership commitment by, 
        among other things, meeting with us to discuss the agency's 
        progress in addressing our recommendations. In June 2018, a 
        permanent Assistant Secretary for Indian Affairs was confirmed. 
        This action provided an opportunity to improve Indian Affair's 
        oversight of federal actions associated with energy 
        development. According to the BIA Acting Director and the 
        Acting Director for Trust Services, BIA held a number of 
        meetings with the Assistant Secretary to discuss agency action 
        plans for our recommendations. However, BIA does not have a 
        permanent Director, and BIA's Office of Trust Service--which 
        has significant responsibility over Indian energy activities--
        does not have a permanent Director or Deputy Director. We have 
        seen turnover in these leadership positions as officials have 
        been brought in to temporarily fill these roles. As officials 
        are brought in temporarily, previously identified plans and 
        timeframes for completing some activities have changed, and BIA 
        has found itself starting over on the process to identify or 
---------------------------------------------------------------------------
        implement corrective actions.

  <bullet> Health Care. IHS officials demonstrated leadership 
        commitment by regularly meeting with us to discuss the agency's 
        progress in addressing our recommendations. In addition, IHS 
        has chartered a policy advisory council that will focus on 
        issues related to strategic direction, recommended policy, and 
        organizational adjustments. According to IHS, this advisory 
        council will, among other things, serve as a liaison among IHS 
        leadership for issues involving strategic direction and policy, 
        as well as monitor and facilitate related policy workgroups. 
        However, IHS still does not have permanent leadership-including 
        a Director of IHS-which is necessary for the agency to 
        demonstrate its commitment to improvement. Additionally, since 
        2012, there have been five IHS Acting Directors, and there has 
        been leadership turnover in other key positions, such as area 
        directors. \10\
---------------------------------------------------------------------------
    \10\ IHS oversees its health care facilities through a 
decentralized system of area offices, which are led by area directors.

    To fully meet the leadership commitment criterion, all agencies 
will need, among other things, stable, permanent leadership that has 
assigned the tasks needed to address weaknesses and that holds those 
assigned accountable for progress. For a timeline of senior leadership 
turnover in Indian Affairs, BIE, BIA, and IHS from 2012 through March 
2019, see Figure 3.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Capacity
    To meet the capacity criterion, an agency needs to demonstrate that 
it has the capacity (i.e., people and other resources) to resolve its 
management weaknesses. Indian Affairs, BIE, BIA, and IHS each made some 
progress in identifying capacity and resources to implement some of our 
recommendations, but BIE and IHS continue to face significant workforce 
challenges. The following examples show actions Indian Affairs, BIE, 
BIA, and IHS took to partially meet the capacity criterion.

  <bullet> Education. BIE and other Indian Affairs offices that support 
        BIE schools have made some progress in demonstrating capacity 
        to address risks to Indian education. For example, BIE hired a 
        full-time program analyst to coordinate its working group and 
        help oversee the implementation of our recommendations on 
        Indian education. This official has played a key role in 
        coordinating the agency's implementation efforts and has 
        provided us with regular updates on the status of these 
        efforts. BIE has also conducted hiring in various offices in 
        recent years as part of a 2014 Secretarial Order to reorganize 
        the bureau. \11\ For example, it has hired school safety 
        officers and personnel in offices supporting the oversight of 
        school spending. However, about 50 percent of all BIE positions 
        have not been filled, including new positions that have been 
        added as a result of the agency's restructuring, according to 
        recent BIE documentation. Moreover, the agency reported that it 
        has not filled the position of Chief Academic Officer, a top-
        level BIE manager responsible for providing leadership and 
        direction to BIE's academic programs. Furthermore, BIE has not 
        completed a strategic workforce plan to address staffing and 
        training gaps with key staff, which we previously recommended. 
        Such a plan is important to allow BIE and other Indian Affairs 
        offices to better understand workforce needs and leverage 
        resources to meet them. In February 2019, BIE drafted a 
        strategic workforce plan and reported it is currently gathering 
        feedback on the plan from internal stakeholders. BIE officials 
        indicated they are planning to finalize and implement the plan 
        in 2019.
---------------------------------------------------------------------------
    \11\ U.S. Department of the Interior, Secretarial Order 3334: 
Restructuring the Bureau of Indian Education (Washington, D.C.: June 
16, 2014).

  <bullet> Energy. In November 2016, we recommended that BIA establish 
        a documented process for assessing the workforce at its agency 
        offices. \12\ BIA has taken a number of actions, such as 
        conducting an internal survey to identify general workforce 
        needs related to oil and gas development. This survey 
        information supported staffing decisions for the recently 
        created Indian Energy Service Center. In February 2019, BIA 
        officials told us they have drafted a long-range workforce plan 
        to ensure BIA has staff in place to meet its organizational 
        needs. We will review the plan to determine if the planned 
        actions will help BIA identify critical skills and competencies 
        related to energy development and identify potential gaps.
---------------------------------------------------------------------------
    \12\ GAO, Indian Energy Development: Additional Actions by Federal 
Agencies Needed to Overcome Factors Hindering Development, GAO-17-43 
(Washington, D.C.: Nov. 17, 2016).

  <bullet> Health Care. IHS has made some progress in demonstrating it 
        has the capacity and resources necessary to address the program 
        risks we identified in our reports. For example, among other 
        actions, IHS officials stated that the agency is expanding the 
        role of internal audit staff within its enterprise risk 
        management program to augment internal audits and complement 
        audits by the HHS Inspector General and GAO. In addition, IHS 
        has developed a new Office of Quality, which is expected to 
        develop and monitor agency-wide quality of care standards. 
        However, IHS officials told us there are still vacancies in 
        several key positions, including the Director of the Office of 
        Resource Access and Partnerships, and the Office of Finance and 
        Accounting. Additionally, our August 2018 report found that 
        IHS's overall vacancy rate for clinical care providers was 25 
        percent. \13\
---------------------------------------------------------------------------
    \13\ GAO-18-580.

    To fully meet the capacity criterion, all of the agencies need to 
assess tradeoffs between these and other administration priorities in 
terms of people and resources, and the agencies should provide to 
decision makers key information on resources needed to address 
management weaknesses.
Action Plan
    To meet the action plan criterion, an agency needs to have a 
corrective action plan that defines the root causes, identifies 
solutions, and provides for substantially completing corrective 
measures in the near term, including steps necessary to implement the 
solutions we recommended. The following examples show actions Indian 
Affairs, BIE, BIA, and IHS took to partially meet the action plan 
criterion.

  <bullet> Education. Among other actions, BIE implemented a new action 
        plan for overseeing BIE school spending, including written 
        procedures and risk criteria, which fully addressed two 
        priority recommendations. Also, BIE completed a strategic plan 
        in August 2018, which we recommended in September 2013. \14\ 
        The plan provides the agency with goals and strategies for 
        improving its management and oversight of Indian education, and 
        establishes detailed actions and milestones for the 
        implementation. However, Indian Affairs has not provided 
        documentation that it has completed action plans on other 
        important issues, such as a comprehensive, long-term capital 
        asset plan to inform its allocation of school facility funds, 
        which we recommended in May 2017. \15\
---------------------------------------------------------------------------
    \14\ GAO-13-774.
    \15\ GAO-17-447.

  <bullet> Energy. In meetings, BIA officials identified actions they 
        have taken towards implementing our recommendations. For 
        instance, BIA officials told us they have recently completed 
        modifications to BIA's database for recording and maintaining 
        historical and current data on ownership and leasing of Indian 
        land and mineral resources--the Trust Asset and Accounting 
        Management System (TAAMS). The officials said that the 
        modifications incorporate the key identifiers and data fields 
        needed to track and monitor review and response times for oil 
        and gas leases and agreements. BIA officials we met with have 
        demonstrated an understanding that addressing long--standing 
        management weaknesses is not accomplished through a single 
        action but through comprehensive planning and continued 
        movement toward a goal. However, the agency does not have a 
        comprehensive action plan to identify the root causes of all 
---------------------------------------------------------------------------
        identified management weaknesses and address the problems.

  <bullet> Health Care. In February 2019, IHS finalized its strategic 
        plan for fiscal years 2019 through 2023, and is developing a 
        related work plan to address certain root causes of management 
        challenges and define solutions and corrective measures for the 
        agency. The strategic plan divides these challenges into three 
        categories: (1) access to care, (2) quality of care, and (3) 
        program management and operations. We will examine the 
        strategic plan and IHS's work plan, once issued, to determine 
        whether they contain the needed elements of an action plan.

    To fully meet the action plan criterion, a comprehensive plan that 
identifies actions to address the root causes of its management 
shortcomings would have to come from top leadership with a commitment 
to provide sufficient capacity and resources to take the necessary 
actions to address management shortcomings and risks.
Monitoring
    To meet the monitoring criterion, an agency needs to demonstrate 
that a program has been instituted to monitor and independently 
validate the effectiveness and sustainability of corrective measures. 
We have been working with the agencies to help clarify the need to 
establish a framework for monitoring progress that includes goals and 
performance measures to track their efforts and ultimately verify the 
effectiveness of their efforts. The following examples show actions 
Indian Affairs, BIE, BIA, and IHS took to partially meet the monitoring 
criterion.

  <bullet> Education. Indian Affairs, in consultation with Department 
        of Interior's Office of Occupational Safety and Health, has 
        taken actions to monitor corrective measures that address 
        weaknesses with the agency's safety program--which covers 
        safety at BIE schools. However, the agency has not yet 
        demonstrated that it is monitoring several other areas, such as 
        whether relevant employees are being held to the agency's 
        required performance standards for safety inspections.

  <bullet> Energy. BIA has taken steps to improve monitoring by holding 
        frequent meetings to assess its progress in implementing our 
        recommendations. However, BIA has not yet taken needed steps to 
        monitor its progress in addressing the root causes of 
        management weaknesses.

  <bullet> Health Care. IHS has taken some steps toward monitoring the 
        agency's progress in addressing the root causes of their 
        management weaknesses. In addition to developing its new Office 
        of Quality, IHS has taken steps to develop a patient experience 
        of care survey, as well as standards for tracking patient wait 
        times. These efforts should be reflected in the agency's 
        corrective plan, as part of an overall framework for monitoring 
        progress that includes goals and performance measures to track 
        their efforts and ultimately verify the effectiveness of their 
        efforts.

    To fully meet the monitoring criterion, the agencies need to 
establish goals and performance measures as they develop action plans 
and take further actions to monitor the effectiveness of actions to 
address root causes of identified management shortcomings.
Demonstrated Progress
    To meet the demonstrated progress criterion, an agency needs to 
demonstrate progress in implementing corrective measures and in 
resolving the high-risk area. The following examples show actions 
Indian Affairs, BIA, and IHS took to partially meet the demonstrated 
progress criterion.

  <bullet> Education. As of February 2019, Indian Affairs had addressed 
        11 of the 23 outstanding education recommendations we 
        identified in our September 2017 testimony. Three of these 
        recommendations were closed after the June 2018 hearing, 
        including a recommendation from our 2013 report for BIE to 
        develop a strategic plan and two recommendations from our 2017 
        report on improving the oversight and accountability for BIE 
        school safety inspections. \16\ Overall, Indian Affairs' 
        efforts since we issued our High-Risk List update in February 
        2017 represent a significant increase in activity implementing 
        our recommendations. \17\ Substantial work, however, remains to 
        address our outstanding recommendations in several key areas, 
        such as in accountability for BIE school safety and school 
        construction projects. For example, Indian Affairs has not 
        provided documentation that the inspection information its 
        personnel collect on the safety of BIE schools is complete and 
        accurate. \18\ As of late February 2019, 12 recommendations 
        related to this high-risk area remain open and Indian Affairs 
        concurred with all 12 recommendations. For a full description 
        of the status of these open recommendations, see in table 1 in 
        appendix I.
---------------------------------------------------------------------------
    \16\ GAO-13-774, GAO-17-421.
    \17\ GAO-17-317.
    \18\ GAO, Indian Affairs: Key Actions Needed to Ensure Safety and 
Health at Indian School Facilities, GAO-16-313 (Washington, D.C.: Mar. 
10, 2016).

  <bullet> Energy. BIA has shown significant progress developing data 
        collection instruments and processes needed to track and review 
        response times for a number of different actions associated 
        with energy development. For example, in our June 2015 report, 
        we recommended that BIA take steps to improve its geographic 
        information system (GIS) capabilities to ensure it can verify 
        ownership in a timely manner. \19\ We closed this 
        recommendation as BIA has made significant progress in 
        enhancing its GIS capabilities by integrating map-viewing 
        technology and capabilities into its land management data 
        system. In addition, we recommended that BIA take steps to 
        identify cadastral survey needs. \20\ BIA's enhanced map-
        viewing technology allows the bureau to identify land boundary 
        discrepancies, which can then be researched and corrected. To 
        address the recommendation, BIA identified unmet survey needs 
        that were contained within the defunct cadastral request 
        system. BIA developed a new mechanism for its regions and 
        agency offices to make survey requests and a new database to 
        maintain survey requests. In fall 2018, BIA completed 
        enhancements to TAAMS that will allow the agency to track 
        timeframes and status of oil and gas revenue-sharing 
        agreements-called communitization agreements (CA) through the 
        review process. BIA held training on the enhancements in 
        November 2018 and requested staff input information on any 
        newly submitted CAs in the system. In a meeting on February 25, 
        2019, the Acting Director of BIA said that BIA had also 
        completed efforts to modify TAAMS, incorporating the key 
        identifiers and data fields needed to track and monitor review 
        and response times for oil and gas leases and agreements. We 
        believe these actions show significant progress in addressing 
        management weaknesses associated with outdated technology and 
        data limitations for tracking and monitoring the review and 
        approval of energy related documents. However, BIA needs to 
        collect data from its updated system, develop timeframes, and 
        monitor agency performance to close open recommendations. For a 
        full description of the status of the agency's open 
        recommendations, see in table 2 in appendix II.
---------------------------------------------------------------------------
    \19\ GAO, Indian Energy Development: Poor Management by BIA Has 
Hindered Energy Development on Indian Lands, GAO-15-502 (Washington, 
D.C.: June 15, 2015).
    \20\ A cadastral survey is, in effect, the public record of the 
extent, value, and ownership of land.

  <bullet> Health Care. IHS has made progress in implementing 
        corrective actions related to the management of health care 
        programs. Specifically, since our 2017 High-Risk Report, IHS 
        implemented four of our 13 open recommendations. For example, 
        in response to our April 2013 recommendation, to ensure that 
        IHS's payment rates for contracted services do not impede 
        patient access to physician and other nonhospital care, IHS 
        developed an online tool that enables the agency to track 
        providers that do not accept IHS's payment rates. As of March 
        2019, six out of the 13 recommendations in our 2017 High-Risk 
        Report remain open, and we have added one additional 
        recommendation--for a total of seven open recommendations 
        related to this high-risk area. IHS officials told us that they 
        plan to complete the implementation of additional 
        recommendations in 2019. For a full description of the status 
        of the agency's open recommendations, see in table 3 in 
---------------------------------------------------------------------------
        appendix III.

    To fully meet the demonstrating progress criterion, agencies need 
to continue taking actions to ensure sustained progress and show that 
management shortcomings are being effectively managed and root causes 
are being addressed.
    In conclusion, we see some progress in meeting all of the criteria, 
at all agencies, especially related to education programs. However, 
permanent leadership that provides continuing oversight and 
accountability is needed. We also see varying levels of progress at all 
of the agencies in understanding what they need to do to be removed 
from the High-Risk List, and identifying steps that can be incorporated 
into corrective action plans. We look forward to working with the 
agencies to track their progress in implementing a framework for 
monitoring and validating the effectiveness of planned corrective 
actions. Among the greatest continuing challenges for the agencies is 
developing sufficient capacity, including demonstrating that they have 
the people and other resources required to address the deficiencies in 
their programs and activities. This challenge cannot be overcome by the 
agencies without a commitment from their leadership and the 
administration to prioritize fixing management weaknesses in programs 
and activities that serve tribes and their members. Sustained 
congressional attention to these issues will help ensure that the 
agencies continue to achieve progress in these areas.
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
this completes my prepared statement. I would be pleased to respond to 
any questions that you may have.
  Appendix I: Status of Open Recommendations to the Department of the 
                      Interior on Indian Education
    As of late February 2019, 12 of the 23 recommendations to the 
Department of the Interior on Indian education we identified in our 
September 13, 2017, testimony remain open.

 Table 1: The Status of Open Recommendations in Prior GAO Reports to the
  Department of the Interior (Interior) on Management and Oversight of
                            Indian Education
------------------------------------------------------------------------
       Category and           Report number
      recommendation            and date                Status
------------------------------------------------------------------------
Management challenges       GAO-13-774        Interior agreed with this
 facing Bureau of Indian     September 2013    recommendation. In
 Education (BIE) The                           February 2019, BIE
 Secretary of the Interior                     drafted a strategic
 should direct the                             workforce plan and
 Assistant Secretary-                          reported it is currently
 Indian Affairs to revise                      gathering feedback on the
 its strategic workforce                       plan from various
 plan to ensure that                           internal offices. BIE
 employees providing                           officials indicated they
 administrative support to                     are planning to finalize
 BIE have the requisite                        and implement the plan in
 knowledge and skills to                       2019. BIE developed the
 help BIE achieve its                          draft plan to also
 mission and are placed in                     address another workforce
 the appropriate offices                       plan recommendation in
 to ensure that regions                        our November 2014 report
 with a large number of                        (see below). We will
 BIE schools have                              continue to monitor the
 sufficient support.                           agency's efforts to
                                               implement these
                                               recommendations.
BIE's oversight of school   GAO-15-121        Interior agreed with this
 spending The Secretary of   November 2014     recommendation. In
 the Interior should                           February 2019, BIE
 direct the Assistant                          drafted a strategic
 Secretary-Indian Affairs                      workforce plan and
 to develop a                                  reported it is currently
 comprehensive workforce                       gathering feedback on the
 plan to ensure that BIE                       plan from internal
 has an adequate number of                     offices. BIE officials
 staff with the requisite                      indicated they are
 knowledge and skills to                       planning to finalize and
 effectively oversee BIE                       implement the plan in
 school expenditures.                          2019. BIE developed the
                                               draft plan to also
                                               address another workforce
                                               plan recommendation in
                                               our September 2013 report
                                               (see above). We will
                                               continue to monitor the
                                               agency's efforts to
                                               implement these
                                               recommendations.
Safety and health at        GAO-16-313 March  Interior agreed with this
 Indian school facilities    2016              recommendation. In
 To support the collection                     September 2018, Indian
 of complete and accurate                      Affairs provided
 safety and health                             documentation that it had
 information on the                            completed fiscal year
 condition of BIE school                       2018 safety inspections
 facilities nationally,                        of all BIE schools. The
 the Secretary of the                          agency also reported that
 Interior should direct                        it is taking steps to
 the Assistant Secretary-                      oversee the quality of
 Indian Affairs to ensure                      school inspections, but
 that all BIE schools are                      it has not provided us
 annually inspected for                        with documentation that
 safety and health, as                         indicates inspection
 required by its policy,                       information agency
 and that inspection                           personnel collect and
 information is complete                       report to schools is
 and accurate.                                 complete and accurate. We
                                               will continue to monitor
                                               the agency's performance
                                               in this area.
To ensure that all BIE      GAO-16-313 March  Interior agreed with this
 schools are positioned to   2016              recommendation. In June
 address safety and health                     2018, Indian Affairs
 problems with their                           provided us with
 facilities and provide                        documentation on its
 student environments that                     efforts to build schools'
 are free from hazards,                        capacity to address
 the Secretary of the                          safety and health
 Interior should direct                        problems with their
 the Assistant Secretary-                      facilities. In
 Indian Affairs to develop                     particular, the agency
 a plan to build schools'                      updated its Service Level
 capacity to promptly                          Agreement between BIA and
 address safety and health                     BIE, which details their
 problems with facilities.                     roles and
 Such a plan could                             responsibilities for
 prioritize assistance to                      inspecting and providing
 schools to improve the                        technical assistance to
 expertise of facility                         BIE schools, among other
 staff to maintain and                         areas. However, Indian
 repair school buildings.                      Affairs' documents
                                               provided little
                                               information on how it
                                               plans to support BIE
                                               school personnel in
                                               fixing safety hazards in
                                               their facilities. In our
                                               2016 report, we found
                                               that school personnel
                                               often lack the necessary
                                               technical expertise to
                                               address safety hazards in
                                               school buildings.
                                               Further, the agency did
                                               not include information
                                               on whether it has staffed
                                               regional offices with
                                               specialists to assist
                                               schools with safety and
                                               facility issues. In
                                               September 2018, we
                                               requested additional
                                               information from Indian
                                               Affairs on this
                                               recommendation but the
                                               agency had not provided
                                               it as of February 2019.
                                               We will continue to
                                               monitor its efforts on
                                               this recommendation.
The Secretary of the        GAO-17-421 May    Interior agreed with this
 Interior should direct      2017              recommendation.In August
 the Assistant Secretary-                      2018, Indian Affairs
 Indian Affairs to develop                     reported that it
 and take corrective                           developed a corrective
 actions, in consultation                      action plan, in
 with Interior's                               consultation with
 Designated Agency Safety                      Interior's Designated
 and Health Official, to                       Agency Safety and Health
 address BIA safety                            Official, and taken some
 program weaknesses                            corrective actions
 identified in prior                           identified in the plan.
 Interior evaluations.                         However, it did not
                                               provide documentation
                                               that correction actions
                                               in other important areas
                                               had been completed, such
                                               as signed management
                                               statements of commitment
                                               to safety and regional
                                               analysis and plans for
                                               correcting safety
                                               deficiencies. In
                                               September 2018, we
                                               requested additional
                                               information from Indian
                                               Affairs on this
                                               recommendation but the
                                               agency had not provided
                                               it as of February 2019.
                                               We will continue to
                                               monitor its efforts on
                                               this recommendation.
The Secretary of the        GAO-17-421 May    Interior agreed with this
 Interior should direct      2017              recommendation.In May
 the Assistant Secretary-                      2018, Indian Affairs
 Indian Affairs to assign                      reported that it had
 responsibility to a                           completed a draft
 specific office or                            training plan and noted
 official to develop and                       that it had submitted the
 implement a plan to                           plan to management for
 assess employees' safety                      review. In February 2019,
 training needs and                            Indian Affairs reported
 monitor employees'                            that its training plan
 compliance with Indian                        for safety personnel was
 Affairs' safety training                      waiting to be approved
 requirements.                                 and signed by management.
                                               We will continue to
                                               monitor Indian Affairs'
                                               efforts to implement this
                                               recommendation.
The Secretary of the        GAO-17-421 May    Interior agreed with this
 Interior should direct      2017              recommendation. In
 the Assistant Secretary-                      February 2019, Indian
 Indian Affairs to ensure                      Affairs reported that the
 that BIA's employee                           appraisal plans for
 performance standards on                      agency safety personnel
 inspections are                               responsible for
 consistently incorporated                     inspecting BIE schools
 into the appraisal plans                      had been updated with the
 of all BIA personnel with                     agency's performance
 safety program                                standards for
 responsibilities.                             inspections. However, it
                                               did not provide
                                               documentation that this
                                               action was taken per our
                                               request. We will continue
                                               to monitor Indian
                                               Affairs' efforts to
                                               implement this
                                               recommendation.
The Secretary of the        GAO-17-421 May    Interior agreed with this
 Interior should direct      2017              recommendation. In May
 the Assistant Secretary-                      2018, Indian Affairs
 Indian Affairs to use                         reported that its Safety
 information gathered from                     Office will assist safety
 monitoring the timeliness                     supervisors in tracking
 of school safety                              inspectors' performance
 inspection reports to                         on report timeliness,
 assess the performance of                     consistency and
 employees with safety                         accountability of
 program responsibilities                      inspection services. As
 and hold them                                 of February 2019, we have
 accountable.                                  not received
                                               documentation that the
                                               agency is taking this
                                               action. We will continue
                                               to monitor Indian
                                               Affairs' efforts to
                                               implement this
                                               recommendation.
Oversight of BIE school     GAO-17-447 May    Interior agreed with this
 construction projects To    2017              recommendation. In August
 ensure accountability for                     2017, Indian Affairs
 BIE school facility                           reported that its Office
 funds, the Secretary of                       of Facilities, Property,
 the Interior should                           and Safety Management was
 direct the Assistant                          undergoing a
 Secretary-Indian Affairs                      reorganization to
 to develop a                                  establish a work group
 comprehensive long-term                       focused on asset
 capital asset plan to                         management and will
 inform its allocation of                      continue to work with the
 school facility funds.                        Office of Management and
 Such a plan should                            Budget to develop a
 include a prioritized                         capital asset management
 list of school repair and                     plan. Indian Affairs
 maintenance projects with                     reported a target date of
 the greatest need for                         June 30, 2018, for
 funding.                                      implementing this
                                               recommendation. As of
                                               February 2019, the agency
                                               had not provided
                                               documentation that it had
                                               completed a comprehensive
                                               long-term capital asset
                                               plan. We will continue to
                                               monitor Indian Affairs'
                                               efforts to implement this
                                               recommendation.
To ensure accountability    GAO-17-447 May    Interior agreed with this
 for BIE school facility     2017              recommendation. In August
 funds, the Secretary of                       2017, Indian Affairs
 the Interior should                           reported that it had
 direct the Assistant                          taken several actions,
 Secretary-Indian Affairs                      including establishing
 to develop and implement                      new oversight mechanisms,
 guidance for its project                      hiring staff with
 managers and contracting                      expertise in construction
 officers regarding                            contracting, and
 effective use of                              administering training
 accountability measures.                      for contracting staff,
                                               among other actions to
                                               enhance the use of
                                               accountability measures
                                               in contracting. In
                                               October 2018, Indian
                                               Affairs reported that it
                                               had taken additional
                                               actions, including
                                               providing formal meeting
                                               and training events on
                                               construction and project
                                               management and conducting
                                               a review of contracting
                                               warrants to ensure that
                                               those possessing
                                               construction capability
                                               had obtained necessary
                                               training. Indian Affairs
                                               also requires additional
                                               management and legal
                                               reviews of certain
                                               construction contracts
                                               and has established
                                               multiple award
                                               construction contracts to
                                               streamline the
                                               construction contracting
                                               process and ensure that
                                               accountability measures
                                               are included in the base
                                               contracts. Indian Affairs
                                               adopted a construction
                                               contract checklist to aid
                                               the construction
                                               contracting team and
                                               developed a new letter
                                               outlining roles and
                                               responsibilities for the
                                               project managers. As of
                                               February 2019, we were
                                               evaluating the agency's
                                               documentation regarding
                                               the implementation of
                                               this recommendation.
To ensure accountability    GAO-17-447 May    Interior agreed with this
 for BIE school facility     2017              recommendation. In August
 funds, the Secretary of                       2017, Indian Affairs
 the Interior should                           reported that its
 direct the Assistant                          Division of Facilities
 Secretary-Indian Affairs                      Management and
 to improve oversight and                      Construction will develop
 technical assistance to                       a project tracking and
 tribal organizations to                       monitoring process for
 enhance tribal capacity                       all projects above a
 to manage major                               certain monetary
 construction projects.                        threshold. Additionally,
                                               Indian Affairs reported
                                               that this office will
                                               work with BIA and BIE
                                               officials to identify
                                               common challenges that
                                               tribes face in managing
                                               projects and provide
                                               appropriate technical
                                               assistance. Indian
                                               Affairs reported a target
                                               date of June 30, 2018,
                                               for implementing this
                                               recommendation. As of
                                               February 2019, the agency
                                               had not provided
                                               documentation that it had
                                               taken these steps. We
                                               will continue to monitor
                                               Indian Affairs' efforts
                                               to implement this
                                               recommendation.
To ensure accountability    GAO-17-447 May    Interior agreed with this
 for BIE school facility     2017              recommendation. In
 funds, the Secretary of                       February 2019, Indian
 the Interior should                           Affairs reported that it
 direct the Assistant                          drafted an internal
 Secretary-Indian Affairs                      policy and guidance on
 to develop and implement                      maintaining contract
 guidance for maintaining                      files, which were
 complete contract and                         undergoing internal
 grant files for all BIE                       review. We will continue
 school construction                           to monitor Indian
 projects.                                     Affairs' efforts to
                                               implement this
                                               recommendation.
------------------------------------------------------------------------
Source: GAO-19-445T

   Appendix II: Status of Open Recommendations to the Department of 
                       Interior on Indian Energy
    As of February 2019, 12 of the 14 recommendations to the Department 
of Interior's Bureau of Indian Affairs cited in our 2017 High-Risk 
Report remain open.

 Table 2: The Status of Open Recommendations in Prior GAO Reports to the
 Department of the Interior's (Interior) Bureau of Indian Affairs (BIA)
         on Management and Oversight of Indian Energy Resources
------------------------------------------------------------------------
       Category and           Report number
      recommendation            and date                Status
------------------------------------------------------------------------
BIA's data and technology   GAO-15-502 June   BIA requested each of its
 BIA should work with the    2015              12 regions to review and
 Bureau of Land Management                     identify historic survey
 (BLM) to identify                             requests that were
 cadastral survey needs.                       contained within a
                                               defunct cadastral request
                                               system to determine if
                                               the requests are still
                                               valid. According to BIA
                                               officials, BIA and BLM
                                               identified about 1,900
                                               survey requests that were
                                               not funded. BIA developed
                                               a new database that
                                               includes this inventory
                                               and new survey requests
                                               since 2015. BIA also
                                               developed a mechanism for
                                               its regions and agency
                                               offices to make new
                                               survey requests.
                                               According to BIA
                                               officials, the agency has
                                               limited funding for
                                               cadastral surveys and
                                               conduct surveys that are
                                               needed for litigation
                                               purposes and those
                                               surveys that are
                                               mandated. Officials said
                                               that BIA and BLM
                                               coordinators meet bi-
                                               monthly. We believe these
                                               actions address the
                                               recommendation and are in
                                               the process of closing
                                               this recommendation.
BIA's oversight of its      GAO-15-502 June   In a meeting on February
 review process for energy   2015              25, 2019, the Acting
 related documents BIA                         Director of BIA said that
 should develop a                              the agency had completed
 documented process to                         efforts to modify TAAMS,
 track its review and                          incorporating the key
 response times.                               identifiers and data
                                               fields needed to track
                                               and monitor review and
                                               response times for oil
                                               and gas leases and
                                               agreements and
                                               communitization
                                               agreements (CA). BIA is
                                               also in the process of
                                               revising its Fluid
                                               Minerals Handbook to
                                               establish a standard
                                               methodology for
                                               processing new leases. We
                                               have meetings planned
                                               with BIA to observe the
                                               tracking and reporting
                                               capabilities of the
                                               updated system. We also
                                               will discuss the status
                                               of actions to track and
                                               monitor realty
                                               transactions and other
                                               energy-related documents,
                                               such as rights of way
                                               agreements.
BIA should enhance data     GAO-15-502 June   BIA identified the same
 collection efforts to       2015              actions to implement this
 ensure it has data needed                     recommendation as the
 to track its review and                       prior recommendation, and
 response times.                               we will be reviewing
                                               these actions.
BIA should establish        GAO-16-553 June   In a meeting on February
 required timeframes for     2016              25, 2019, BIA officials
 the review and approval                       told us the agency has
 of Indian CAs to ensure a                     drafted suggested
 more timely CA process.                       timeframes for the review
                                               and approval for the
                                               Indian CAs for both BIA
                                               and BLM. BIA is revising
                                               the Onshore Energy and
                                               Mineral Lease Management
                                               Interagency Standard
                                               Operating Procedures to
                                               include these timeframes.
                                               The officials said that
                                               the Indian Energy and
                                               Minerals Steering
                                               Committee (IEMSC) will
                                               meet in May 2019 and
                                               discuss the proposed
                                               timeframes. IEMSC is a
                                               committee within Interior
                                               that includes senior
                                               managers from BIA, BLM,
                                               and other agencies with a
                                               focus on Indian trust
                                               energy and mineral
                                               policies and issues. When
                                               BIA establishes required
                                               timeframes for the review
                                               approval of CAs, this
                                               recommendation will be
                                               closed.
BIA should develop a        GAO-16-553 June   In April 2017, BIA began
 systematic mechanism for    2016              tracking CAs through the
 tracking Indian CAs                           review and approval
 through the review and                        process in a centralized
 approval process to                           spreadsheet while the
 determine, among other                        agency modified TAAMS. In
 things, whether the                           the fall of 2018, BIA
 revised CA process meets                      completed enhancements to
 newly established                             TAAMS that will allow the
 timeframes.                                   agency to track
                                               timeframes and status of
                                               Indian CAs through the
                                               review process. BIA held
                                               training on the
                                               enhancements with realty
                                               staff in November 2018
                                               and requested staff input
                                               information on any newly
                                               submitted CAs in the
                                               system. We believe these
                                               actions address most of
                                               the recommendation. Once
                                               timeframes have been
                                               established and
                                               monitored, we believe
                                               this will be fully
                                               addressed.
BIA should assess whether   GAO-16-553 June   In a meeting on February
 the revised CA process is   2016              25, 2019, the BIA Acting
 achieving its objective                       Director and other
 to improve the timeliness                     officials said that they
 of the review and                             have collected data since
 approval of Indian CAs,                       April 2017 on the
 and if not, make changes                      timeframes of the review
 as appropriate.                               and approval of CAs and
                                               have been assessing
                                               efforts to streamline the
                                               process. In addition, the
                                               officials said that the
                                               Indian Energy and
                                               Minerals Steering
                                               Committee (IEMSC) will
                                               meet in May 2019 and this
                                               topic will be discussed.
                                               When BIA provides
                                               documentation on their
                                               assessment of the revised
                                               process, we will be able
                                               to close this
                                               recommendation.
BIA's collaboration and     GAO-17-43         In a meeting on February
 communication BIA should    November 2016     25, 2019, the BIA Acting
 include the other                             Director said the agency
 regulatory agencies in                        has formal agreements
 the Service Center, such                      with Interior's Fish and
 as FWS, EPA, and the                          Wildlife Service (FWS),
 Corps, so that the Indian                     the Environmental
 Energy Service Center                         Protection Agency (EPA)
 (Service Center) can act                      and the U.S. Army Corps
 as a single point of                          of Engineers (Corps). We
 contact or a lead agency                      plan to obtain and review
 to coordinate and                             these agreements. In
 navigate the regulatory                       addition, we plan to
 process.                                      visit the Service Center
                                               to discuss agency roles
                                               and coordination.
BIA should establish        GAO-17-43         BIA prepared an addendum
 formal agreements with      November 2016     to expand an existing
 Interior's Office of                          memorandum of
 Indian Energy and                             understanding between DOE
 Economic Development                          and IEED to include the
 (IEED) and the Department                     Service Center. DOE has
 of Energy (DOE) that                          not yet approved the
 identify, at a minimum,                       agreement. However, the
 the advisory or support                       existing memorandum of
 role of each office                           understanding between DOE
 involved with the Service                     and IEED does not
 Center.                                       identify the role for
                                               these agencies as related
                                               to the Service Center. We
                                               plan to visit the Service
                                               Center to discuss agency
                                               roles and coordination.
BIA should establish a      GAO-17-43         On June 13, 2018, the
 documented process for      November 2016     Acting Director of BIA
 seeking and obtaining                         testified before the
 input from key                                Senate Committee on
 stakeholders, such as BIA                     Indian Affairs that the
 employees, on the Service                     Service Center developed
 Center activities.                            a process that allows key
                                               agencies to provide input
                                               and requests for service.
                                               The Acting Director
                                               reported that the process
                                               includes guidance on the
                                               prioritization of task
                                               orders and that Service
                                               Center officials began
                                               using an intake form in
                                               August 2017 to obtain
                                               input regularly from
                                               stakeholders. We plan to
                                               visit the Service Center
                                               to learn about this
                                               process and any others
                                               the Service Center may
                                               have to obtain input
                                               regularly from
                                               stakeholders.
BIA should document the     GAO-17-43         BIA reported it has taken
 rationale for key           November 2016     actions needed to
 decisions related to the                      implement our
 establishment of the                          recommendation. On May
 Service Center, such as                       17, 2017, the Acting
 alternatives and tribal                       Assistant Secretary-
 requests that were                            Indian Affairs testified
 considered.                                   before the Senate
                                               Committee on Indian
                                               Affairs that Interior
                                               considers this
                                               recommendation
                                               implemented because (1)
                                               the development of the
                                               Service Center was the
                                               result of a concept paper
                                               produced by a multi-
                                               agency team and (2) a
                                               multi-agency team held a
                                               tribal listening session,
                                               received written
                                               comments, and conducted
                                               conference calls in an
                                               effort to gather input
                                               from relevant
                                               stakeholders. BIA's
                                               actions have not resulted
                                               in documentation on the
                                               alternatives considered,
                                               whether tribal input and
                                               requests were considered,
                                               and the rationale for not
                                               incorporating key
                                               suggestions. Without
                                               documentation on
                                               alternatives considered
                                               in establishing the
                                               Service Center, it is
                                               unclear whether requests
                                               from stakeholders were
                                               appropriately considered.
                                               Since BIA has not
                                               provided this
                                               documentation, we plan to
                                               close this recommendation
                                               as unimplemented.
BIA's workforce planning    GAO-17-43         BIA has taken a number of
 BIA should incorporate      November 2016     actions, such as
 effective workforce                           conducting an internal
 planning standards by                         survey to identify
 assessing critical skills                     general workforce needs
 and competencies needed                       related to oil and gas
 to fulfill BIA's                              development. This survey
 responsibilities related                      information supported
 to energy development and                     staffing decisions for
 by identifying potential                      the Indian Energy Service
 gaps.                                         Center. On June 13, 2018,
                                               the Acting Director of
                                               BIA testified before the
                                               Senate Committee on
                                               Indian Affairs that the
                                               BIA conducted a multi-
                                               agency survey to collect
                                               workforce data on needs
                                               for energy and minerals
                                               management. According to
                                               the Acting Director of
                                               BIA, the survey
                                               information confirmed
                                               needs across agencies in
                                               the areas of engineering,
                                               engineering technicians
                                               and environmental science
                                               disciplines. He also
                                               stated that BIA would
                                               work to develop effective
                                               workforce standards to
                                               address the need for the
                                               skills and competencies
                                               needed for energy
                                               development. In a meeting
                                               on February 25, 2019, BIA
                                               officials said that the
                                               Office of Trust Service
                                               has developed a long-
                                               range workforce action
                                               plan. The plan includes
                                               proposed actions to
                                               identify potential gaps
                                               in the workforce and
                                               determine future needs.
                                               We plan to gather
                                               additional information
                                               and review the workforce
                                               action plan to determine
                                               if these actions result
                                               in BIA identifying
                                               critical skills and
                                               competencies needed to
                                               fulfill BIA's
                                               responsibilities related
                                               to energy development and
                                               identifying potential
                                               gaps agency offices.
BIA should establish a      GAO-17-43         We plan to gather
 documented process for      November 2016     additional information
 assessing BIA's workforce                     and review the workforce
 composition at agency                         action plan to determine
 offices taking into                           if it establishes a
 account BIA's mission,                        process for assessing
 goals, and tribal                             BIA's workforce
 priorities.                                   composition at agency
                                               offices.
------------------------------------------------------------------------
Source: GAO-19-445T

   Appendix III: Status of Open Recommendations to HHS on the Indian 
                             Health Service
    As of March 2019, six out of the 13 recommendations in our 2017 
High-Risk Report remain open, and we have added one additional 
recommendation-for a total of seven open recommendations related to 
this high-risk area.

   Table 3: Status of Open Recommendations in Prior GAO Reports to the
     Department of Health and Human Services (HHS) on Management and
              Oversight of the Indian Health Service (IHS)
------------------------------------------------------------------------
       Category and           Report number
      recommendation            and date                Status
------------------------------------------------------------------------
Estimating Purchased/       GAO-11-767        HHS agreed with our
 Referred Care (PRC)         September 2011    recommendation. In March
 program needs To develop                      2019, IHS officials
 more accurate data for                        reported that updates to
 estimating the funds                          the PRC chapter of the
 needed for the PRC                            Indian Health Manual had
 program and improving IHS                     been completed that
 oversight, the Secretary                      address this
 of Health and Human                           recommendation, and that
 Services should direct                        the updated manual would
 the Director of IHS to                        be posted to the IHS
 develop a written policy                      website shortly. We will
 documenting how IHS                           review the updated PRC
 evaluates need for the                        chapter of the Indian
 PRC program and                               Health Manual once it is
 disseminate it to area                        posted.
 offices and PRC programs
 to ensure they understand
 how unfunded services
 data are used to estimate
 overall program needs.
To develop more accurate    GAO-11-767        HHS agreed with our
 data for estimating the     September 2011    recommendation. In March
 funds needed for the PRC                      2019, IHS officials
 program and improving IHS                     reported that updates to
 oversight, the Secretary                      the PRC chapter of the
 of Health and Human                           Indian Health Manual had
 Services should direct                        been completed that
 the Director of IHS to                        address this
 provide written guidance                      recommendation, and that
 to PRC programs on a                          the updated manual would
 process to use when funds                     be posted to the IHS
 are depleted and there is                     website shortly. We will
 a continued need for                          review the updated PRC
 services, and monitor to                      chapter of the Indian
 ensure that appropriate                       Health Manual once it is
 actions are taken.                            posted. We will also
                                               review IHS's monitoring
                                               of actions taken after
                                               this guidance is issued.
Ensuring equitable          GAO-12-446 June   HHS agreed with our
 allocation of PRC program   2012              recommendation. In March
 funds To make IHS's                           2019, IHS officials
 allocation of PRC program                     reported that updates to
 funds more equitable, the                     the PRC chapter of the
 Secretary of Health and                       Indian Health Manual had
 Human Services should                         been completed that
 direct the Director of                        address this
 the Indian Health Service                     recommendation, and that
 to develop written                            the updated manual would
 policies and procedures                       be posted to the IHS
 to require area offices                       website shortly. We will
 to notify IHS when                            review the updated PRC
 changes are made to the                       chapter of the Indian
 allocations of funds to                       Health Manual once it is
 PRC programs.                                 posted.
Improving IHS's PRC         GAO-14-57         HHS agreed with the first
 program In an effort to     December 2013     part of this
 ensure that IHS has                           recommendation. As of
 meaningful information on                     December 2018, IHS
 the timeliness with which                     officials told us that it
 it issues purchase orders                     had implemented the first
 authorizing payment under                     part of this
 the PRC program and to                        recommendation by
 improve the timeliness of                     developing two new
 payments to providers,                        Government Performance
 the Secretary of the                          and Results Act (GPRA)
 Department of Health and                      measures that recognize
 Human Services should                         the differences in
 direct the Director of                        payment processes for the
 IHS to: (1) modify IHS's                      two types of referrals in
 claims data system to                         the PRC program.
 separately track IHS                          Officials reported that
 referrals and self-                           IHS is tracking and
 referrals, revise the                         monitoring progress
 Government Performance                        towards reaching both
 Results Act measure for                       these targets, and will
 the PRC program so that                       report its performance
 it distinguishes between                      annually in the
 these two types of                            Congressional
 referrals, and establish                      Justification. Regarding
 separate timeframe                            the second part of this
 targets for these                             recommendation, in March
 referral types; and (2)                       2019, IHS officials
 improve the alignment                         reported that updates to
 between PRC staffing                          the PRC chapter of the
 levels and workloads by                       Indian Health Manual had
 revising its current                          been completed that
 practices, where                              address this
 appropriate, to allow                         recommendation, and that
 available funds to be                         the updated manual would
 used to pay for PRC                           be posted to the IHS
 program staff.                                website shortly. We will
                                               review the updated PRC
                                               chapter of the Indian
                                               Health Manual once it is
                                               posted.
Improving IHS oversight of  GAO-16-333 March  HHS agreed with our
 patient wait times To       2016              recommendation. IHS
 help ensure that timely                       officials stated in March
 primary care is available                     2019 that they were
 and accessible to                             updating the agency's
 American Indian and                           patient wait time
 Alaska Native people, the                     standards to include
 Secretary of HHS should                       emergency department wait
 direct the Director of                        times, and the agency was
 IHS to monitor patient                        working to develop system-
 wait times in its                             wide capacity for data
 federally operated                            measurement and
 facilities and ensure                         monitoring. Once the
 corrective actions are                        standards are fully
 taken when standards are                      developed and monitoring
 not met.                                      is underway, IHS will
                                               also need to ensure
                                               corrective actions are
                                               taken when standards are
                                               not met. We will review
                                               IHS's monitoring of
                                               patient wait times, as
                                               well as corrective
                                               actions taken, after
                                               these procedures have
                                               been established and
                                               implemented.
Improving IHS oversight of  GAO-17-181        HHS agreed with this
 quality of care To help     January 2017      recommendation and
 ensure that quality care                      reported that agency-wide
 is provided to American                       measures, goals and
 Indian and Alaska Native                      benchmarks have been
 people, the Secretary of                      developed, and that they
 HHS should direct the                         build on best practices
 Director of IHS to, as                        and external benchmarks
 part of the                                   from comparable
 implementation of its                         organizations. HHS also
 quality framework, ensure                     has a system-wide
 that agency-wide                              dashboard of performance
 standards for the quality                     accountability metrics,
 of care provided in its                       for use at the
 federally operated                            enterprise, area, and
 facilities are developed,                     facility levels. In
 that facility performance                     addition, IHS awarded a
 in meeting these                              contract to a software
 standards is                                  development firm in
 systematically monitored                      December 2018 to design a
 over time, and that                           new adverse event
 enhancements are made to                      reporting and tracking
 its adverse event                             system for the agency. We
 reporting system.                             will review IHS's
                                               monitoring of facility
                                               performance, and its new
                                               adverse event reporting
                                               system when they are
                                               completed.
Improving IHS               GAO-18-580        HHS agreed with this
 decisionmaking about        August 2018       recommendation. In its
 resource allocation and                       comments on our report,
 provider staffing The                         HHS stated that IHS plans
 Director of IHS should                        to update its policies to
 obtain, on an agency-wide                     include a centralized
 basis, information on                         reporting mechanism
 temporary provider                            requirement for all
 contractors, including                        temporary contracts
 their associated cost and                     issued for providers. HHS
 number of full-time                           also stated that, upon
 equivalents, and use this                     finalization of the
 information to inform                         policy, IHS will broadly
 decisions about resource                      incorporate and implement
 allocation and provider                       the reporting mechanism
 staffing.                                     agency-wide and maintain
                                               it on an annual basis. We
                                               will update the status of
                                               this recommendation when
                                               we receive additional
                                               information.
------------------------------------------------------------------------
Note: IHS's PRC program, as it is currently known, was previously
  referred to as the Contract Health Services (CHS) program in prior GAO
  reports. Source: GAO-19-445T


    The Chairman. Thank you, Director Farb. We appreciate it.
    Director Dearman.

     STATEMENT OF TONY DEARMAN, DIRECTOR, BUREAU OF INDIAN 
           EDUCATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Dearman. Good afternoon Chairman Hoeven, Vice Chairman 
Udall and members of the Committee.
    Thank you for the invitation to appear again on behalf of 
the Bureau of Indian Education to discuss our ongoing work to 
address the high risk designation from the Government 
Accountability Office.
    As of today, I am happy to report that BIE has closed nine 
of the thirteen overdue recommendations since the first high 
risk hearing in 2017. The BIE has also closed two 
recommendations from GAO-17-421, for a total of eleven 
recommendation closures. The BIE continues to work 
collaboratively with our GAO colleagues to address all 
remaining recommendations, including those issued in 2017.
    As I have testified before, the BIE views the GAO reports 
as a constructive tool to improve our agency and help the 
students we are committed to serve. Today, I would like to 
update you on our progress and provide you with our plans to 
address the remaining outstanding recommendations. Regarding 
GAO Report 13-774, BIE has completed implementation of all but 
one recommendation in this report, including the BIE's first 
ever five-year strategic direction. The direction is a 
culmination of a year of hard work, planning and substantive 
consultation with tribes and will, for the first time, provide 
a comprehensive road map for BIE.
    BIE purposely delayed implementation of the two outstanding 
recommendations regarding a strategic workforce plan until 
finalizing the direction. Following publishing of the direction 
in mid-August, the BIE conducted an exhaustive analysis of its 
available human resources data to create a working draft of the 
workforce plan.
    In an ongoing effort to work early and often with GAO on 
all of our high risk-related projects, we provided GAO with the 
draft in mid-February. I am happy to report that the BIE 
received GAO's feedback last week and we are working to 
incorporate their expert input.
    BIE initially anticipated completing the workforce plan 
prior to the hearing. However, the recent shutdown delayed the 
completion date. We expect to complete this process in the 
coming weeks and look forward to formally closing the two 
workforce plan recommendations soon thereafter.
    It is worth highlighting here that the department 
previously considered BIE's workforce plan recommendation in 
13-774 closed. However, following BIE's meeting with GAO on 
June 17th and August 16th of 2017, GAO provided clarification 
regarding its expectations. As a result, the BIE and the 
department agreed that its previous work did not fully address 
GAO's recommendation and agreed to reinitiate work on its 
strategic workforce plan.
    Regarding GAO-16-313, BIE successfully implemented 
Recommendations II and IV, and GAO permanently closed the 
recommendations in early 2018.
    BIE and its Indian Affairs partners continue to work 
implementing GAO's two remaining recommendations. In addition, 
BIE and BIA once again administered safe school audits with a 
100 percent completion rate in 2018. We are on track to 
complete 100 percent of the inspections in 2019 and are 
monitoring whether schools have established required safety 
committees.
    We are also working to ensure employee performance 
standards regarding inspections are consistently incorporated 
into the appraisal plans of personnel with safety program 
responsibilities. Personnel are on schedule to require safety 
inspectors to formally document when inspection reports are 
delivered to schools, as well as establish a process to 
routinely monitor the timeliness of such reports.
    Further, BIE staff and its Indian Affairs partners drafted 
and recently implemented the Indian Affairs Safety, Health and 
Accessibility Inspection Evaluation Guidelines, which will 
comprehensively address many of the GAO safety-related 
recommendations outlined in subsequent reports released in 
2017.
    Chairman Hoeven, Vice Chairman Udall and members of the 
Committee, thank you for the opportunity to present testimony 
today and to provide the Committee an update regarding our work 
with GAO. Work remains. The BIE continues to make progress and 
is committed to addressing all GAO recommendations to improve 
services to our students.
    Thank you for your time and I would be honored to answer 
any questions.
    [The prepared statement of Mr. Dearman follows:]

    Prepared Statement of Tony Dearman, Director, Bureau of Indian 
               Education, U.S. Department of the Interior
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and Members of 
the Committee. Thank you for the invitation to appear again on behalf 
of the Bureau of Indian Education (BIE) to discuss our ongoing work to 
address the high-risk designation from the Government Accountability 
Office (GAO) in the High Risk Report (GAO-17-317 High Risk Series). 
GAO's recently issued report, GAO-19-157SP,provides the updated status 
of the Department's efforts to address these recommendations.
    Since the first High Risk hearing in 2017, the BIE has worked to 
address all outstanding recommendations, with nine of the thirteen 
overdue recommendations permanently closed. Additionally, the BIE has 
closed two separate recommendations from GAO-17-421, for a total of 
eleven recommendation closures. The BIE continues to work 
collaboratively with our GAO colleagues to address all remaining GAO 
recommendations, including those issued in 2017, to improve our 
services to Indian students. Such work has already proven effective as 
evidenced by our newly implemented Strategic Direction and 
comprehensive fiscal monitoring policy, both of which have 
substantially improved our managerial effectiveness and our ability to 
serve schools and Indian students.
    As I previously testified, the BIE team views the GAO reports as a 
constructive tool to improve our agency and help the students we are 
committed to serve. As such, I will update you on headway made in the 
following areas:

        1. GAO High Risk Status for BIE
        2. GAO Recommendations: Status & BIE Next Steps

GAO High Risk Status for BIE
    In February 2017, the GAO released its High Risk Report (GAO-17-317 
High Risk Series) designating BIE as a high-risk agency. The GAO 
highlighted persistent weaknesses noted in previous reports that 
inhibit the agency from efficiently executing its mission to serve 
Indian students:

  <bullet> Indian Affairs' (IA) oversight of school safety and 
        construction, as well as how BIE monitors the way schools use 
        Interior funds;

  <bullet> The impact of limited workforce planning in several key 
        areas related to BIE schools;

  <bullet> The effects of aging BIE school facilities and equipment and 
        how such facilities contribute to degraded and unsafe 
        conditions for students and staff; and

  <bullet> How the lack of internal controls and other weaknesses 
        hinder IA's ability to collect complete and accurate 
        information on the physical conditions of BIE schools.

    BIE considers GAO recommendations a roadmap to establish and 
maintain comprehensive internal policies and procedures that support 
service delivery, ensure accountability, and provide organizational 
stability.
GAO Recommendations: Status and BIE Next Steps
    Since I started as the Director, BIE has prioritized resources and 
critical personnel to refocus our efforts in addressing the 
longstanding, systemic issues outlined in GAO reports that will 
ultimately improve our ability to serve Indian students.
GAO-13-774-INDIAN AFFAIRS: Better Management and Accountability Needed 
        to Improve Indian Education (September 2013).
    GAO made five recommendations:

        I.) Develop and implement decisionmaking procedures, which are 
        documented in management directives, administrative policies, 
        or operating manuals;

        II.) Develop a communication strategy;

        III.) Appoint permanent members to the BIE-Education committee 
        and meet on a quarterly basis;

        IV.) Draft and implement a strategic plan with stakeholder 
        input; and

        V.) Revise the BIE strategic workforce plan.

    BIE completed implementation of all but one recommendation in this 
report, recommendation five, including the BIE's first five-year 
Strategic Direction (Direction). The BIE designed the Direction to 
increase BIE's ability to improve its services to Indian students by 
organizing management activities, setting priorities, and ensuring 
efficient and effective utilization of staff and resources, while also 
working collaboratively with Tribes, school boards, employees, and 
other stakeholders. As BIE implements the Direction, it is providing 
quarterly updates online regarding progress and will institute a mid-
cycle status update during Year Three of the implementation. As part of 
each yearly evaluation of milestones and actions, the BIE will notify 
Tribes, school boards, employees and other stakeholders about annual 
reporting to inform their feedback and gather input for the mid-cycle 
status update during Year Three.
    Recommendation V--BIE purposefully delayed implementation of 
recommendation five until finalizing the Direction to ensure alignment 
of the two planning documents. Following publication of the Direction, 
the BIE initiated the collection and analysis of its available human 
resources data. BIE initially projected its completion date by this 
hearing. However, the recent shutdown delayed the completion date. We 
provided a first draft to our GAO colleagues to review and provide 
substantive edits on February 19, 2019. GAO provided us with their 
comments and feedback on March 4, 2019. We are now working to 
incorporate feedback into the final plan. We expect to complete this 
process in the coming weeks and look forward to formally closing this 
recommendation soon thereafter.
GAO-15-121-INDIAN AFFAIRS: Bureau of Indian Education Needs to Improve 
        Oversight of School Spending (November 2014).
    GAO made four recommendations:

        I.) Develop a comprehensive workforce plan;

        II.) Implement an information sharing procedure;

        III.) Draft a written procedure for making major program 
        expenditures; and

        IV.) Create a risk-based approach in managing BIE school 
        expenditures.

    As is the case with the previous GAO report, the BIE completed 
implementation of all but recommendation one. It is worth highlighting 
the recently published BIE High Risk Fiscal Oversight Policy and 
Handbook. For the first time, the BIE established a comprehensive 
fiscal monitoring protocol, which coordinates efforts and technical 
assistance to schools across the organization. As a result, GAO 
permanently closed recommendations two, three, and four.
    Recommendation I--During the early stages of the current BIE 
reform, IA conducted an initial workforce study. Following BIE's 
meetings with GAO on June 17, 2017 and August 16, 2017, GAO provided 
clarification regarding its expectations. As a result, the BIE's 
strategic workforce plan referenced under GAO-13-774 will fully address 
recommendation five from GAO-13-774 as well as recommendation one from 
GAO-15-121. As such, the BIE plans to formally close this 
recommendation in the coming weeks.
GAO-16-313-INDIAN AFFAIRS: Key Actions Needed to Ensure Safety and 
        Health at Indian School Facilities (March 2016)
    GAO made four recommendations:

        I.) Ensure that all BIE schools are inspected as well as 
        implement a plan to mitigate challenges;

        II.) Prioritize inspections at schools where facility 
        conditions may pose a greater risk to students;

        III.) Develop a plan to build schools' capacity to promptly 
        address safety and health problems with facilities and improve 
        the expertise of facility staff to maintain and repair school 
        buildings; and

        IV.) Consistently monitor whether schools have established 
        required safety committees.

    BIE successfully implemented recommendations two and four, and GAO 
permanently closed the recommendations in early 2018. BIE and its IA 
partners continue its work implementing GAO's two remaining 
recommendations contained in GAO-16-313.
    Recommendations I and III--BIE is collaborating with partners from 
across IA to address its remaining safety-related GAO recommendations. 
Through an IA collaborative working group to address outstanding safety 
issues, BIE and IA administered safe school audits with a 100 percent 
completion rate in 2016, 2017, and 2018. We are on track to complete 
100 percent of inspections in 2019 and are monitoring whether schools 
have established required safety committees.
    Regarding 16-313 recommendation one, the IA Deputy Assistant 
Secretary--Management (DAS-M) has provided a closure package to GAO. 
GAO has communicated to DAS-M that it will monitor implementation of 
the submitted plan over the remainder of 2019 and will provide final 
closure by December 31, 2019. Regarding 16-313 recommendation three, 
DASM plans to submit a formal closure package to GAO by March 29, 2019.
    We are also working to ensure that employee performance standards 
regarding inspections are consistently incorporated into the appraisal 
plans of personnel with safety program responsibilities. Personnel are 
on schedule to require safety inspectors to formally document when 
inspection reports are delivered to schools as well as establish a 
process to routinely monitor the timeliness of such reports. Further, 
BIE staff and its IA partners drafted and recently implemented the 
``Indian Affairs Safety Health and Accessibility Inspection/Evaluation 
Guidelines'', which will comprehensively address many of GAO's safety-
related recommendations outlined in subsequent GAO reports released in 
2017.
Conclusion
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
thank you for the opportunity to present testimony today and provide 
the Committee an update regarding our work with GAO. Work remains, but 
BIE continues to make progress and is committed to addressing all GAO 
recommendations to improve services to our students. Thank you for your 
time, and I would be honored to answer any questions you may have.

    The Chairman. How about in regard to the lateness of your 
testimony? Would you comment in that regard?
    Mr. Dearman. Senator, we apologize for the lateness of our 
testimony. We have a lot of moving parts right now in making 
sure that the recommendations are closed, because there are a 
lot of departments and Indian Affairs partners that are 
included in assisting in closing the GAO's recommendations. We 
wanted to make sure that the information provided was accurate. 
We do have a review process with the department.
    I will definitely take back the concern with the 
department. I will make certain we meet the deadline for the 
next hearing.
    The Chairman. Thank you.
    Director LaCounte.

        STATEMENT OF DARRYL LaCOUNTE, ACTING DIRECTOR, 
       BUREAU OF INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. LaCounte. Good afternoon, Chairman Hoeven and Vice 
Chairman Udall. Thank you for the opportunity to present a new 
update on behalf of the Department of the Interior regarding 
Indian Affairs' role in the development of Indian energy and 
our continued commitment to address the high risk designation 
in the Government Accountability Office High Risk Report. Thank 
you.
    I apologize, too, on behalf of the department for our late 
submission of the written testimony. The department has been 
working hard right up to the last evening to include all 
actions taken to address the GAO recommendations in order to 
give the Committee the most up-to-date, accurate picture.
    There are some new folks involved in the process and I am 
confident everyone involved will learn from this. I am really 
confident that when I am the witness, I will speak a little 
louder as the deadline nears. But to be honest with you, I 
really don't know why it is late.
    Approximately one year ago in February 2018, I began in an 
acting capacity as the Deputy Bureau Director for Trust 
Services and soon transitioned into the Acting Bureau Director. 
As I stated in my testimony in June 2018, my priority was not 
just to address the GAO recommendations in the High Risk 
Report, but to ensure we fully enhance our systems, so that 
implementation has proven significant results well into the 
future.
    The Indian Energy Service Center has processed 21 new 
communitization agreements as recommended in GAO's 16-553 since 
September of 2018, which is a reflection of our dedication and 
commitment to assure we advance economic opportunities and 
technical support in full partnership with tribes and tribal 
members developing their energy resources.
    My staff and I have also worked diligently to reestablish 
and improve communications with GAO. I feel we have been very 
successful in developing a productive relationship with our 
newly-designated point of contact at GAO. Regular communication 
with a consistent staff provides much needed coordination to 
close the High Risk List recommendations as well as improve the 
overall process to address other issues.
    We agreed to meet with GAO at the Indian Energy Service 
Center for a site visit later this month to demonstrate our 
system enhancements and streamlined processes related to those 
recommendations. I will go off my script a little bit and 
invite anyone from this Committee to join in that. We look 
forward to progressing together.
    As the Committee is aware, the GAO made 14 recommendations 
to the Bureau of Indian Affairs within three separate reports. 
The department agreed with GAO's recommendations and endeavored 
to address them by committing to and implementing widespread 
reform to help foster energy independence among tribes who are 
interested in developing their resources. We are confident that 
all 14 recommendations have been addressed and believe they 
should be closed as our solutions to these findings have been 
implemented throughout the Bureau.
    As indicated in my previous update, the BIA had closed 
Recommendations 1 and 5 and really, the GAO has closed 1 and 5. 
I also indicated I was aggressively prioritizing the closing 
out of Recommendations 2, 3, 4 and 6 by the end of September 
2018. Our goal was to close the remaining Recommendations 7 
through 14 by the end of the calendar year.
    We provided closure packages for all of the outstanding 
recommendations to the Indian Affairs Division of Internal 
Evaluation and Assessment by the end of September 2018. We also 
provided follow-up information as requested for closure by the 
end of December 2018. We will work with our partners to ensure 
the process is complete for closure. Additionally, we look 
forward to improving our own evaluation and reporting capacity 
and structure within Indian Affairs through this process.
    Again, thank you for the opportunity to provide an update 
on our progress in addressing the GAO recommendations from past 
reports and the GAO-17-317 high risk series. I would be glad to 
answer any questions the Committee may have.
    [The prepared statement of Mr. LaCounte follows:]

   Prepared Statement of Darryl LaCounte, Acting Director, Bureau of 
            Indian Affairs, U.S. Department of the Interior
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee. 
Thank you for the opportunity to provide an update on behalf of the 
Department regarding Indian Affairs' role in the development of Indian 
energy and our continued commitment to address the high risk 
designation in the Government Accountability Office (GAO) High Risk 
Report (GAO-17-317 High Risk Series). GAO's recently issued report, 
GAO-19-157SP, provides the updated status of the Department's efforts 
to address these recommendations.
    As the Committee is aware, the Department agreed with GAO's 
recommendations and we continue to address the recommendations by 
implementing widespread reform to help foster energy independence among 
Tribes who are interested in developing their resources. As the High 
Risk report notes, GAO made fourteen recommendations to the Bureau of 
Indian Affairs (BIA), in three reports. As of June 13, 2018, 
Recommendations 1 and 5 had been closed. BIA made a commitment to close 
Recommendations 2, 3, 4, and 6, by the end of September 2018, and 
Recommendations 7, 8, 9, 13, and 14 by the end of the calendar year.
    The GAO recommendations are incorporated into our operations and 
have proven to benefit our modernization initiatives and improve 
efficiencies while building progressive relationships in collaboration 
with parties engaged in Indian energy.
GAO 15-502
    Recommendation 1: To ensure it can verify ownership in a timely 
manner and identify resources available for development, BIA should 
take steps to complete its GIS mapping module in TAAMS.
    As announced in my last visit on June 13, 2018, the Indian Affairs 
GIS Map Viewer has been deployed as of August 31, 2017. BIA addressed 
the requirements for this Recommendation, and is closed as of February 
22, 2018.

    Recommendation 2: To ensure it can verify ownership in a timely 
manner and identify resources available for development, BIA should 
work with Bureau of Land Management (BLM) to identify cadastral survey 
needs.
    The BIA and the BLM established a Reimbursable Service Agreement 
between the two agencies to deliver the much needed survey-related 
products and services. BLM and BIA established a database that contains 
the information necessary to identify ownership. An intake mechanism 
was developed by the Indian Energy Service Center for making new survey 
requests.
    Specifically, BIA and BLM established a Reimbursable Service 
Agreement (RSA) for Cadastral Surveys complete for Fiscal Years 2015, 
2016, 2017, and 2018; established the Cadastral Survey Inventory 
established in 2015, completed the BIA Guidance on October 10, 2018; 
and completed the Cadastral Survey Implementation on October 1, 2018. 
Implementation and full deployment of the cadastral survey process was 
complete in 2018.

    Recommendation 3: To improve the efficiency and transparency of its 
review process, BIA should develop a documented process to track its 
review and response times.
    System enhancements in the Trust Asset and Accounting Management 
Systems (TAAMS) were developed to track Mineral Leases from submission, 
approval, and recordation. As of September 30, 2018, the module was 
complete and implemented in the suite of TAAMS Modules. The module 
provides transparency in tracking and monitoring the status of a 
Mineral Lease throughout the review and approval process. In addition 
BIA provided TAAMS Minerals Module Training Guides and Webex Training, 
where we tracked attendance to ensure delivery of information and 
support.
    The BIA updated the 2012 Fluid Minerals Handbook (52 IAM X-H, to 
assist Staff in the review and approval of new Oil and Gas Leases. The 
Handbook establishes a standard for processing new leases, whether the 
result of a lease advertisement and sale or the result of negotiations 
between the parties to the lease. It includes new or updated flowcharts 
and templates, language and content updates and corrections. The 
Handbook is complete and currently in the final stages of clearance for 
release by our Regulatory Affairs office, which is expected in early 
May 2019.

    Recommendation 4: To improve the efficiency and transparency of its 
review process, BIA should enhance data collection efforts to ensure it 
has data needed to track its review and response times.
    As in Recommendation 3, BIA developed system enhancements to TAAMS 
and updated the Fluid Minerals Handbook. TAAMS can now track mineral 
leases from submittal to approval and recordation. This tool adds to 
the BIA agencies' transparency in identifying the status of a mineral 
lease throughout the review and approval process. Management can also 
access TAAMS and determine the status of a lease. The TAAMS Enhancement 
request was approved by the TAAMS Change Management Board (TCMB) in 
2017, and the enhancements were incorporated into the system by 
September 30, 2018.
    The BIA has the capability of capturing key dates along the review 
and approval process for a lease package, including, but not limited 
to, the initial receipt, confirmation of a complete lease package, 
approval and recording of the leases. This module has been completed 
and added to the suite of modules in TAAMS as of September 30, 2018.

    Recommendation 5: Provide additional energy development-specific 
guidance on provisions of Tribal Energy Resource Agreement (TERA) 
regulations that tribes have identified to Interior as unclear.
    In the last testimony, we reported that our Department's Office of 
Indian Energy and Economic Development (IEED) placed on its web site 
guidance to tribes seeking an approved TERA or which seek to assume 
energy-related administrative functions under Public Law 93-638 on 
August 31, 2017. As a result, the GAO closed Recommendation 5 on March 
8, 2018.
GAO 16-553
    Recommendation 1: Establish required timeframes for the review and 
approval of an Indian Communitization Agreement (CA) to ensure a more 
timely CA process.
    As communicated previously, the Department continues its work to 
ensure timely review and approval of Indian Communization Agreements 
(CA). A National Policy Memorandum (Memorandum) was issued that 
establishes a tracking mechanism to monitor the existing timeframes for 
review and approval of Indian CAs. The TAAMS CA system enhancements 
were completed by September 30, 2018.
    The process is outlined in the Standard Operating Procedure (SOP) 
and supported by the intent of the Interagency Agreement. The 
Interagency Agreement is signed by BIA, BLM, OST, ONRR and IEED to 
process federal Indian energy transactions. SOP training specific to 
Indian Oil and Gas Leasing Activities was held on June 12-13, 2018, at 
the National Indian Training Center in Albuquerque, New Mexico. 
Additionally, we held another training on December 11-12, 2018, at the 
Federal Center in Lakewood, Colorado.

    Recommendation 2: Develop a systematic mechanism for tracking 
Indian CAs through the review and approval process to determine, among 
other things, whether the revised CA process meets newly established 
timeframes.
    A national tracking mechanism was established to identify 
timeframes and captures the status of transactions in the system of 
record, TAAMS. This tool adds to the agencies' transparent 
identification of the status of any CA application within the review 
process. The system has the capability of capturing key dates along the 
review and approval process for a CA package, including, but not 
limited to, the initial receipt, confirmation of a complete package, 
technical review request sent to BLM, and the recommendation received 
from BLM.
    BIA developed and implemented the tracking functionality Bureau-
wide through TAAMS effective September 30, 2018. With the system 
enhancements in TAAMS, BIA tracks CAs from submittal to approval and 
recordation. This CA suite of modules in TAAMS is complete as of 
September 30, 2018.

    Recommendation 3a: Assess whether the revised CA process is 
achieving its objective to improve the timeliness of the review and 
approval of Indian CAs, and if not, make changes as appropriate.
    This recommendation is consistent with activity completed in 
relation to other recommendations. As of September 30, 2018, the 
Communitization Agreement (CA) tracking module was added to the Trust 
Asset and Accounting Management System (TAAMS) to expedite the review 
and approval of Indian CA's. The CA module provides agency wide 
transparency on the status of any CA application process.
    The BIA has the capability of capturing key dates during the review 
and approval process, including, but not limited to, the initial 
receipt, confirmation of a complete package, technical review request 
sent to the Bureau of Land Management (BLM), and recommendations 
received from BLM. SOP training specific to Indian Oil and Gas Leasing 
Activities was held on June 12--13, 2018, and December 11-12, 2018.
    As previously reported, since 2017, BIA has utilized a Google 
Tracking Sheet to track national Indian CA's from submission to 
approval. The Google Tracking Sheet was BIA's interim approach to track 
the approval of CA's, gather information on timeframes and status, and 
establish a baseline to ensure improvement of timeliness of the Indian 
CA review and approval process. Data from the Google Tracking Sheet is 
important and utilized to track timeframes in TAAMS to assist in 
establishing metrics for processing agreements.
GAO 17-43
    Recommendation 3: Include the other regulatory agencies in the 
Service Center, such as FWS, EPA, and the Army Corps of Engineers, so 
that the Service Center can act as a single point of contact or a lead 
agency to coordinate and navigate the regulatory process.
    The Indian Energy Service Center (IESC) fosters and establishes 
working relationships with other federal agencies to enhance Indian 
Energy opportunities. The BIA is committed to collaborating and 
establishing formal Memorandum of Understanding (MOUs) with other 
federal agencies to expedite oil and gas development. The purpose of 
the MOU is to enhance cooperation, efficiency, and effectiveness of 
Energy and Mineral issues.
    In 2017, the IESC submitted formal invitations to each agency 
regarding the implementation of MOUs with the United States Fish & 
Wildlife Service (USFWS), Environmental Protection Agency (EPA), and 
United States Army Corps of Engineers (USACE). As a result of the 
formal invitations, IESC participated in several conference calls and 
meetings with each agency to discuss the request of the Government 
Accountability Office (GAO) and the benefits of the formal MOUs.
    On January 10, 2018, the United States Army Corps of Engineers 
(USACE) signed the MOU with IESC. On June 1, 2018, the U.S. Fish and 
Wildlife Service's Principal Deputy Director also signed the MOU with 
IESC. On June 14, 2018, the Environmental Protection Agency approved 
the MOU with IESC.

    Recommendation 4: Establish formal agreements with IEED and DOE 
that identify, at a minimum, the advisory or support role of each 
office.
    A formal MOU was established between the Office of Indian Energy 
and Economic Development (IEED) and the Department of Energy (DOE) on 
June 21, 2016. On August 9, 2018, an Addendum to the MOU between IEED 
and DOE was approved by myself, the Acting Director of the Bureau of 
Indian Affairs. On September 5, 2018, the Addendum to the MOU with IEED 
and DOE was approved by the Assistant Secretary--Indian Affairs. The 
purpose of the addendum was to invite the Bureau of Indian Affairs--
Indian Energy Service Center to participate in the MOU between IEED and 
DOE.

    Recommendation 5: Establish a documented process for seeking and 
obtaining input from key stakeholders, such as BIA employees, on the 
Service Center activities.
    In my last report, I testified the IESC developed a process that 
allows key agencies to provide input and requests for service received 
on behalf of tribes from the IESC. The process includes guidance on the 
prioritization of task orders. The Executive Management Group of the 
IESC is comprised of the directors of the BIA, BLM, ONRR, and Office of 
the Special Trustee for American Indians (OST). The IESC began 
utilizing the intake forms in August 2017 to obtain input regularly 
from stakeholders. IESC is on target to close this recommendation. This 
process is still in use, and this recommendation can be closed.

    Recommendation 6: Document the rationale for key decisions related 
to the establishment of the Service Center, such as alternatives and 
tribal requests that were considered.
    The Department created the Indian Energy & Minerals Steering 
Committee (IEMSC), which is a group that helps to ensure that the 
Department meets its trust responsibility to federally recognized 
Indian tribes and the individual Indian mineral owners. The IEMSC is an 
inter-agency forum for Indian energy and mineral resource development, 
royalty management coordination, and information exchange. This 
committee is comprised of senior representatives from the BIA, BLM, 
ONRR, OST, and the Solicitor's Office.

    Recommendation 7: Incorporate effective workforce planning 
standards by assessing critical skills and competencies needed to 
fulfill BIA's responsibilities related to energy development and by 
identifying potential gaps.
    As the Acting Director, I identified the top workforce planning 
priorities with the goal of the most effective development and 
execution of workforce planning, so that the organization is able to 
leverage its human capital to accomplish its strategic goals. The 
Office of Trust Services (OTS) developed metrics to capture benefits or 
challenges in workforce planning.
    To ensure the most efficient and cost-effective workforce, the BIA 
requires competent staff with technical skills for Energy and Mineral 
Development on Indian lands. As previously reported, a multi-agency 
survey was collected in order to better understand and to align with 
workforce needs for energy and minerals management. The information 
gleaned from the survey confirmed common needs across agencies in the 
areas of engineering, engineering technicians and environmental science 
disciplines at the forefront of identifying the availability of the 
resources for economic development.
    Based on responses to the survey and current data, BIA attrition 
over the past five years has resulted in a potential gap of 33 to 50 
Engineers, Engineering Technicians, and Environmental Scientists in BIA 
Trust operations. Current retirement statistics project that 59 percent 
of the employees who occupy these positions are eligible for retirement 
now or within 5 years.
    The OTS workforce planning consists of developing and implementing 
an Energy and Minerals Student Internship Program. The purpose is to 
address skills gaps across Indian country. This will contribute to an 
overall national strategy to attract, recruit, train, develop, and 
retain highly qualified Indian and Alaskan Natives within the BIA, 
Tribes, or Tribal Enterprises.
    Approximately 20 Pathways Student internship positions for 
engineering and engineering technician career fields have been approved 
and will be funded by the OTS this Fiscal Year. Selections and 
recruitment is targeted for March 29, 2019.

    Recommendation 8: Establish a documented process for assessing 
BIA's workforce composition at agency offices taking into account BIA's 
mission, goals, and tribal priorities.
    In previous testimony, we indicated it was assessing the BIA Indian 
energy and mineral workforce composition using the same process as 
described in Recommendation 13. The BIA continues to identify and 
assess its energy and minerals workforce composition using data 
collected from a multi-agency survey to develop a strategy to implement 
a large scale process that ensures that current decisions and actions 
impacting the workforce are aligned with short and long-term strategic 
needs for energy and minerals management. OTS prepared an Indian Energy 
and Minerals Workforce Planning Action Plan dated August 9, 2018 and is 
prepared to close this recommendation.
Conclusion
    Thank you for the opportunity to present an update on our progress 
in addressing the GAO recommendations from past reports and the GAO 
High Risk Report. The BIA is confident that all of these 
recommendations have been addressed and believe they should be closed. 
We look forward to improving our own evaluation and reporting capacity 
and structure within Indian Affairs through this process. I would be 
glad to answer any questions the Committee may have.

    The Chairman. Thank you, Director LaCounte.
    Admiral Weahkee.

          STATEMENT OF REAR ADMIRAL MICHAEL WEAHKEE, 
    PRINCIPAL DEPUTY DIRECTOR, INDIAN HEALTH SERVICE, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Weahkee. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall and members of the Committee.
    I am Rear Admiral Michael Weahkee, Principal Deputy 
Director of the Indian Health Service. I am pleased to appear 
before this Committee again to provide testimony regarding IHS 
programs identified by the U.S. Government Accountability 
Office's 2019 High Risk Report that was just released last 
week.
    I would like to take this opportunity to restate that our 
continued priority and goal at IHS is to provide high quality 
health care for American Indians and Alaska Natives. IHS is 
committed to making improvements and ultimately, to being 
removed from the GAO's High Risk List.
    Although IHS is still on the list, we have made significant 
progress since the GAO's 2017 Report was published. Since that 
time, GAO has closed seven of their recommendations to IHS. 
Earlier this month, IHS requested closure of an additional four 
open recommendations after issuing updates to our Indian Health 
Manual's Purchased and Referred Care Chapter.
    Since June 2018, IHS has realized significant progress in 
making improvements to quality care for American Indians and 
Alaska Natives. These improvements include implementing 
credentialing and privileging software agency-wide for all 
providers and awarding a new contract for an adverse events 
reporting and tracking system that replaces an older legacy 
system. IHS also started work on modernizing our electronic 
health record system. In collaboration with the Department of 
Health and Human Services' Office of the Chief Technology 
Officer, we are completing a Health Information Technology 
Modernization Research Project to inform us about options to 
replace or modernize our existing infrastructure.
    In February of 2019, IHS released a new strategic plan for 
fiscal years 2019 to 2023, which will help guide ongoing 
efforts to provide health care for American Indians and Alaska 
Natives throughout the United States. This plan details how the 
IHS will achieve its mission through three strategic goals, 
which are each supported by several objectives and dozens upon 
dozens of strategies. This plan continues to elevate and 
institutionalize the work that was previously included in the 
IHS Quality Improvement framework.
    Our Indian Health Service's new Office of Quality was 
formally established in January 2019, and our new Deputy 
Director for Quality Healthcare was selected and on-boarded at 
IHS headquarters in November of 2018. The Office of Quality 
will include four divisions: Enterprise Risk Management, 
Quality Assurance, Innovation and Improvement, and Patient 
Safety and Clinical Risk Management. The Office of Quality 
supports IHS hospitals and health centers by providing 
resources and tools for quality assurance and improvement to 
attain and maintain compliance with CMS certification standards 
and with Joint Commission accreditations.
    Accreditation and certification surveys have been conducted 
at 26 IHS facilities in nine IHS areas. As a result, as of the 
third quarter of 2018, 96 percent of IHS hospitals were fully 
accredited or CMS certified, and 97 percent of our Indian 
Health Service health centers were accredited.
    IHS understands the importance of having permanent 
leadership in key positions throughout the agency. In the past 
year, the Indian Health Service has filled eight Senior 
Executive Service positions, which includes two headquarters 
senior leadership positions, two area director positions, and 
four headquarters office director positions.
    As the Committee knows, recruitment and retention of health 
care professionals is a challenge for the Indian Health Service 
and other health care organizations serving rural and remote 
locations. To meet these challenges, the IHS has offered 
legislative proposals in the fiscal year 2019 IHS Congressional 
Justification for discretionary use of all Title 38 personnel 
authorities, half-time obligations for loan repayment and 
scholarship recipients, and tax exemption for these recipients.
    Since implementation of the PRC rates regulations in 
October 2016, the PRC program has realized a $1.188 billion 
increase in purchasing power according to our fiscal 
intermediary. This purchasing power has allowed our PRC 
programs to pay for additional services and fund more medical 
priority levels than ever before, which improves access to care 
for our patients.
    In closing, there are a few updates regarding the Pine 
Ridge Indian Hospital that I believe are important to mention 
to this Committee. On February 26, 2019, the Joint Commission 
Resources was onsite at the Pine Ridge Hospital to conduct a 
review of compliance in preparation for an accreditation 
survey. IHS is preparing to send a request by the end of March 
to CMS for a recertification survey visit at the Pine Ride 
Hospital.
    As the Acting Principal Deputy Director and the lead of the 
agency, I am very proud of the dedication and commitment of our 
IHS team at all levels of the agency who have focused on and 
accomplished the objectives of the action plan during this past 
year. These actions demonstrate that the IHS is taking its 
challenges seriously, and is continuing to take assertive and 
proactive steps to address them.
    I want to thank you for your commitment to improving 
quality, safety and access to health care for American Indians 
and Alaska Natives.
    I am happy to answer questions you might have.
    [The prepared statement of Mr. Weahkee follows:]

 Prepared Statement of Rear Admiral Michael Weahkee, Principal Deputy 
    Director, Indian Health Service, U.S. Department of Health and 
                             Human Services
    Good afternoon, Chairman Hoeven, Vice-Chairman Udall, and Members 
of the Senate Committee on Indian Affairs. I am RADM Michael D. 
Weahkee, Principal Deputy Director of the Indian Health Service (IHS). 
I am pleased to appear before this Committee again to provide testimony 
regarding IHS programs identified by the U.S. Government Accountability 
Office (GAO) High Risk Report recently released on March 6, 2019. Our 
continued priority and goal at IHS is to provide quality care.
    IHS is a unique agency within the Department of Health and Human 
Services (HHS). It is the only HHS agency whose primary function is 
direct health care delivery. IHS was established to carry out the 
responsibilities, authorities, and functions of the United States in 
providing health care services to American Indians and Alaska Natives. 
The mission, in partnership with American Indian and Alaska Native 
people, is to raise the physical, mental, social, and spiritual health 
of American Indians and Alaska Natives to the highest level. The IHS 
system consists of 12 area offices, which oversee 170 service units 
that provide care at the local level. Health services are provided 
through facilities managed by IHS, by Tribes and tribal organizations 
under authorities of the Indian Self-Determination and Education 
Assistance Act, and through contracts and grants awarded to urban 
Indian organizations authorized by the Indian Health Care Improvement 
Act.
Demonstrated Progress
    IHS is committed to making improvements and ultimately to being 
removed from the GAO's High Risk list. The GAO released its most recent 
High Risk Report on March 6, 2019. Although IHS is still on the list, 
we have made significant progress since the GAO's High Risk report 
published on February 15, 2017. Since that time, GAO has closed seven 
recommendations. Earlier this month, IHS requested closure of four 
recommendations after issuing updates to the Indian Health Manual, 
Purchased/Referred Care (PRC) chapter. The remaining two 
recommendations cited in the 2017 report require continued IHS 
monitoring of the actions implemented before we formally ask the GAO to 
close them. In the March 6, 2019 report, GAO cites one additional 
recommendation that was not cited in the 2017 report, and IHS is moving 
forward with actions to implement this recommendation.
    Since June 2018, IHS has realized significant improvements to 
quality care for American Indians and Alaska Natives. These 
improvements include developing and implementing an IHS Strategic Plan 
for Fiscal Year 2019-2023, establishing an Office of Quality, 
implementing credentialing and privileging software agency-wide for all 
applicants, and awarding a new contract for an adverse events reporting 
and tracking system that replaces an older legacy system.
    IHS also started work on modernizing our electronic health record 
system. In collaboration with the HHS Office of the Chief Technology 
Officer, we are completing a Health Information Technology (HIT) 
Modernization Research Project to inform IHS regarding options to 
replace or modernize our existing HIT infrastructure.
Leadership Commitment
    IHS leadership is committed to making progress on addressing GAO's 
recommendations and continues to press forward in working partnership 
with GAO. Since last June, IHS has met four times with key GAO 
officials to describe action plans for closing-out the recommendations 
and to review our activities to meet the criteria to be removed from 
the High Risk list. IHS is focused on implementing change across the 
agency to strengthen our ability to ensure quality health care.
    In February 2019, IHS released the Strategic Plan for Fiscal Years 
2019-2023. The Strategic Plan will help guide ongoing efforts to 
provide health care for American Indians and Alaska Natives throughout 
the United States. The plan details how the IHS will achieve its 
mission through three strategic goals, which are each supported by 
objectives and strategies.

  <bullet> Goal 1: To ensure that comprehensive, culturally appropriate 
        personal and public health services are available and 
        accessible to American Indian and Alaska Native people.

  <bullet> Goal 2: To promote excellence and quality through innovation 
        of the Indian health system into an optimally performing 
        organization.

  <bullet> Goal 3: To strengthen IHS program management and operations.

    This Strategic Plan reflects the feedback received from Tribes, 
tribal organizations, urban Indian organizations, IHS staff, and other 
stakeholders. This plan continues to elevate and institutionalize the 
work previously included in the IHS Quality Improvement framework.
    IHS leadership, along with HHS, seeks to innovate the delivery of 
care the IHS provides to meet the health needs of tribal communities 
not fully addressed by the traditional hospital model in some locations 
IHS serves. Our facilities are predominately in rural locations with 
limited access to services for the population, or in urban areas where 
the services provided are duplicative of those available in private 
sector facilities. As a result, our hospitals tend to have low 
utilization of inpatient services. To address this, we could transition 
from full hospital services to an ambulatory care center with 24/7 
urgent care or to a critical access hospital where appropriate. Through 
this transition we could reallocate staff and resources from expensive 
and lightly used inpatient services to more cost-effective and heavily 
used primary care services.
    Last month, I participated in the first HHS Intradepartmental 
Council on Native American Affairs meeting under the current 
administration. The council is comprised of HHS Operating Division and 
Staff Division senior officials. The council discusses strategies, 
priorities and recommendations on new partnerships and 
intradepartmental collaboration relating to American Indians and Alaska 
Natives. This is an exciting step in broadening our partnership 
throughout the Department and with other Federal agencies outside of 
HHS.
Progress on Improvements in Quality Care
    IHS's new Office of Quality was formally established in January 
2019 and our new Deputy Director for Quality Healthcare was selected 
and on-boarded in November 2018. The Office of Quality will include 
four divisions: Enterprise Risk Management (ERM), Quality Assurance, 
Innovation and Improvement, and Patient Safety and Clinical Risk 
Management. Six current staff in quality assurance, quality 
improvement, patient safety and clinical risk management roles are 
transitioning to the new Office of Quality. ERM has begun transitioning 
to the new Office of Quality, which will be completed by the end of 
fiscal year 2019. Five new positions for the Office of Quality have 
been announced, and IHS plans to interview and hire within the next two 
months. During the transition of staff and ERM, IHS anticipates all 
current work will continue without disruption.
    The Office of Quality supports IHS hospitals and health centers by 
providing resources and tools for quality assurance and improvement to 
attain and maintain compliance with Centers for Medicare & Medicaid 
Services (CMS) regulations and accreditation standards. Accreditation 
and Certification surveys have been conducted at 26 IHS facilities in 
nine IHS areas. As a result, in the third quarter of 2018, 96 percent 
of IHS hospitals were fully accredited or CMS certified, and 97 percent 
of IHS health centers were accredited.
    Improving access to care is a top priority for the agency. Wait 
times are one component of access to care, and an important measure of 
the patient experience. In 2017, IHS published IHS Circular Number 17-
11 establishing wait time standards for direct care IHS facilities. 
Facilities are already using data to drive measureable improvements in 
wait times. The published IHS Wait Time Standards are undergoing 
improvement to add wait time standards for emergency department 
settings. IHS is working toward further automating data collection and 
reporting capabilities to improve monitoring and accountability.
Monitoring
    As mentioned in prior testimony to this Committee, IHS finalized 
the National Accountability Dashboard for Quality (NADQ) on February 
20, 2018. Since finalization, we've completed a Fiscal Year (FY) 2018 
Quarter 3 report that was released October 9, 2018. With the release of 
the 2018 Quarter 4 report in March 2019, the NADQ will have 
successfully completed a full year of reporting. The dashboard is a 
valuable reporting tool that enables IHS headquarters and area offices 
to have a near real-time view of health care hospitals and health 
centers functioning across the system. Over time, this will facilitate 
implementation and monitoring of quality care measures. As IHS 
continues to implement the NADQ, we anticipate the results will 
demonstrate sustained improvements in the nine key metrics tracked in 
the dashboard including accreditation and an active quality improvement 
program.
Organizational Capacity
    IHS understands the importance of having permanent leadership in 
key positions throughout the agency. In the past year, IHS has filled 
eight Senior Executive Service positions, which includes two senior 
staff positions, two area director positions, and four headquarter 
office director positions. In addition, IHS continues its leadership 
training program designed to prepare selected IHS individuals to serve 
in leadership positions at the service unit, area, and headquarters 
levels. The leadership training program has had three cohorts since the 
summer of 2017 with nearly 100 total participants completing the 
training. The next cohort starts in March 2019.
    Recruitment and retention of health care professionals is a 
challenge for IHS and other health care organizations serving rural 
locations. To meet these challenges, IHS offered legislative proposals 
in the FY 2019 IHS Congressional Justification for discretionary use of 
all Title 38 personnel authorities, half-time obligations for loan 
repayment and scholarship recipients, and tax exemption for these 
recipients.
Purchased/Referred Care Improvements
    IHS continues to improve and increase access to care for our 
beneficiaries through outreach, education, and enrollment activities. 
The national PRC program set targets for local programs to ensure that 
IHS is able to provide access to our patients in the most cost 
effective manner. All levels of PRC management frequently monitor 
progress towards meeting these targets, and IHS started doing internal 
quarterly monitoring in September 2018 to look at root causes for not 
meeting the targets. Initial analysis identified two caveats to the 
measure that are beyond IHS control: 1) the time it takes from 
authorization to appointment availability is significant, and 2) the 
time it takes for a provider to file a claim is significant.
    Since implementation of the PRC rates regulations in October 2016, 
the PRC program has realized a $1.188 billion increase in purchasing 
power according to the fiscal intermediary. This purchasing power has 
allowed PRC programs to pay for additional services and fund more 
medical priority levels than ever before, which improves access to care 
for our patients.
    In closing, there are a few updates regarding the Pine Ridge and 
Rosebud IHS Hospitals that are important to mention to this Committee. 
On February 26, 2019, The Joint Commission Resources was onsite at the 
Pine Ridge Hospital to conduct a review of compliance in preparation 
for an accreditation survey. IHS is preparing to send a request by the 
end of March to CMS for a recertification survey of the Pine Ridge 
Hospital. There are a few recent key personnel changes at the Pine 
Ridge Hospital. We have hired a full time Clinical Director as of 
January 20, 2019. We have also put in place an acting Director of 
Nursing and an acting Administrative Officer in the past month.
    At the Rosebud Hospital, we hired a new Chief Medical Officer, 
Chief Nurse Officer, Chief Quality Manager, and a Federal Emergency 
Department Nurse supervisor. We have two additional Nurse Case managers 
awaiting acceptance of employment offers, and three new Registered 
Nurses, an OB/GYN physician, and a psychologist on board. We have also 
made improvements in Outpatient Clinic access at the Rosebud Hospital, 
which include extending outpatient hours, a workflow redesign to gain 
efficiency, and tele-health for outpatient clinics including Emergency 
Department, Cardiology, Endocrinology, Behavioral Health, Rheumatology, 
and Neurology. Also, facility projects for improvements include the 
following: dental renovation, HVAC system replacement with a start date 
Summer 2019, and a 19 unit housing complex with a completion date 
projected for May 2019.
    We have improved our tribal consultation at Rosebud with weekly 
meetings between the Rosebud Sioux Tribe (RST) Health Administrator, 
RST Health board members, and Rosebud Hospital leadership. The RST 
Council and health board attend hospital meetings monthly.
    We have also continued to reach out and support our tribal partners 
in the Winnebago Tribe of Nebraska and the Omaha Tribe of Nebraska. IHS 
has offered the Winnebago Tribe technical assistance since it assumed 
control of the hospital in June 2018. In December 2018, I traveled 
along with other senior IHS staff to meet with both Tribes for a tour 
of the Twelve Clans Unity Hospital.
    I am very proud of the dedication and commitment of our IHS team at 
all levels of the agency; who have focused on and accomplished the 
objectives of the action plan during this past year. These actions 
demonstrate that IHS is taking its challenges seriously, and is 
continuing to take assertive and proactive steps to address them.
    Thank you for your commitment to improving quality, safety, and 
access to health care for American Indians and Alaska Natives. I am 
happy to answer your questions.

    Senator Udall. [Presiding.] Thank you to the panel for your 
testimony today.
    Admiral, I do not think you mentioned anything about the 
Dr. Weber incident in your testimony, is that correct?
    Mr. Weahkee. Yes, sir, that is correct.
    Senator Udall. I wanted to focus on that for a little bit.
    First of all, I believe there is a documentary that has 
come out. I asked my Indian Affairs staff if they had watched 
it. I was wondering if you had watched it. It is a Wall Street 
Journal, PBS, I think, yes a Frontline, PBS, Wall Street J 
Journal documentary that came out on February 12th.
    Mr. Weahkee. Yes, sir, I have seen it, and actually took 
part as an interviewee with the Wall Street Journal and PBS.
    Senator Udall. So you are very familiar with it. I am going 
to see it. I haven't seen it yet but they told me it was very 
hard to watch. I think that is consistent with some of the 
questions I think I am going to ask.
    As I stated in my opening, I find the failure of IHS to 
address the multiple reports of Dr. Weber's abhorrent conduct 
with young IHS patients appalling. IHS officials reportedly 
ignored reports, retaliated against employees who tried to 
raise the alarm, and left Native children in the hands of a 
predator.
    Has the Service determined why Dr. Weber wasn't fired after 
the Billings Area leadership became aware of his misconduct? 
Why was he allowed to remain an IHS employee and transfer to 
the Great Plains Area?
    Mr. Weahkee. Thank you, Senator, for the question.
    The Indian Health Service has been working hard to gather 
as many facts as we have access to about Dr. Weber's tenure 
with the agency. It stretches all the way back to 1986, so we 
are talking about 33 years in the past. The particular time 
when he was in Montana was 1992 to 1995, so even that, we are 
looking back 25 or so years ago. Many of the employees who were 
in place at the time have since retired or moved on.
    We have committed to conducting, via a third party 
contractor or vendor, what we are framing as a medical quality 
assurance review. We are going to have somebody who can come in 
and look objectively not only at the Indian Health Service 
records. We know who the people were in charge at the time in 
these various places, but we would like somebody to come in and 
interview not only our own employees, but community members, 
tribal members, law enforcement, and others.
    Much of what we learned about the case we learned from our 
partners at the Office of Inspector General and through the 
investigations conducted by the Federal Bureau of Investigation 
and the South Dakota Medical Board. We are gathering as much 
information as we can but we do not have the answers to those 
types of questions yet at this time.
    Senator Udall. So the two questions that I asked, why he 
wasn't fired after the Billings Area leadership became aware of 
his misconduct, you don't know the answer to that yet?
    Mr. Weahkee. Not yet, sir.
    Senator Udall. But you are going to get an answer for me.
    Mr. Weahkee. Absolutely.
    Senator Udall. Why was he allowed to remain an IHS employee 
and transfer to the Great Plains Area? Do you have an answer 
for that?
    Mr. Weahkee. Well, we do know there were a couple of 
investigations conducted previously, again, one of those by the 
FBI themselves. There was not enough evidence gathered at the 
time to substantiate allegations. So we want to look back and 
really determine who knew what. And getting back to the issue 
of the culture of the agency, if there were individuals who 
knew and they didn't push that information out to either law 
enforcement or to others within the supervisory chain, why.
    As I had mentioned in the PBS Frontline story, I would 
consider those individuals who may have had knowledge and 
didn't push that forward as being complicit in the actions of 
Dr. Weber.
    Senator Udall. As far as I am concerned, management at 
every level failed to do their jobs and their duties under 
Federal law. This is unconscionable and unacceptable.
    Now, something similar has happened before that I want to 
just note here. This failure aligns with the concerns raised in 
this Committee's report of 2010 called the Dorgan Report, that 
IHS management does not follow Federal employee misconduct 
procedures and instead, transfers problem employees and assists 
in a system colloquially referred to as pass the lemon.
    What that report looked at is, the idea that you see some 
misconduct and rather than dealing with it, it is just passed 
on to someplace else in the system. So I hope when you come 
back and answer those questions that I have just asked, that we 
are not finding ourselves in that situation.
    How is IHS working to make sure service units and area 
management do their job to document and address Federal 
employee misconduct?
    Mr. Weahkee. Thank you, Senator Udall.
    What we have done, and I would just first like to start by 
committing to you that it will not be tolerated to pass that 
bad lemon while I am in this seat. We are going to put the 
infrastructure in place to ensure that is sustainable for the 
agency moving forward.
    Senator Udall. Will you also commit that you are going to 
protect whistleblowers, and make sure if they come forward, 
that they are not retaliated against? Now is your opportunity 
to talk to all of your employees, the ones that not only watch 
you today, but hear through various channels in the Indian 
Health Service as to what has happened here. Will you commit to 
that?
    Mr. Weahkee. Absolutely, yes, sir. We have been messaging 
that since the sentencing took place when Dr. Weber was 
convicted and sentenced. We have made sure that messaging has 
gone out broadly.
    We envision over this next year conducting a series of town 
halls throughout the Indian Health Service, so that I can meet 
directly with employees and relay that message personally. We 
will also be shooting videos so that we capture as many of our 
15,400 employees as possible.
    Some of the other actions that we have taken, we have 
implemented new policies which provide even higher ethical 
standards for our health care providers and others. We have 
also made it mandatory that not only are licensed health care 
providers who, as a part of their licensing requirements are 
mandatory reporters, we have made every single Indian Health 
Service employee a mandatory reporter. And with that goes the 
protection.
    We want to institute what is called a just culture, so that 
every employee not only feels that they can bring issues 
forward and not fear retaliation or reprisal, but that they are 
actually celebrated when they do so, when they point something 
out that does not quite look right, needs to be fixed, that 
they bring those items forward. We dedicate the resource and 
time to fix them, and that those individuals are thanked for 
doing that.
    We have also, as I had mentioned in the opening testimony, 
implemented the National Credentialing Software System. That 
enables us to have quick, ready access to our physicians' and 
other providers' medical credential files. Those files can be 
viewed not just at the location to which they are assigned, but 
at the area offices and headquarters level as well and there is 
portability of those records. A number of actions are underway.
    Senator Udall. Thank you. I appreciate that.
    Senator Lankford, you are up in the questioning box.

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. Thank you. By the way, I think Senator 
Daines from Montana set the temperature in this room today to a 
temperature that is close to his preference on that. I don't 
know if you have noticed, but it is definitely north of 
Oklahoma temperature in here.
    Senator Daines. It is refreshing.
    Senator Lankford. It is refreshing and keeps everybody 
going.
    Thank you all for being here. Thanks for the ongoing work. 
Obviously, we have questions, as we should. GAO has brought up 
some good things to be able to bring for conversation. I am 
going to bring a couple of them as well.
    Let me ask the question that is really my favorite that 
some of you have not heard me ask before. For GAO, tell me 
where it is working. You are identifying areas where it is 
incomplete. Where is it working in the Country? Where do you 
see coordination and cooperation really happening or making 
progress?
    Ms. Farb. I will start and I may invite my colleagues up to 
join me, because I focus on the health care area.
    Where it is working for us with regard to IHS is the 
regular meeting to talk about the recommendations, to have the 
time to explain to them what we are seeing and sort of the 
underlying root cause problems that lead to the 
recommendations, so having that ability. We are not just 
focused on closing recommendations. We are focused on improving 
the management and oversight. So what has been working for us 
is in the last year and a half, they have been doing a number 
of things that Admiral Weahkee mentioned to address the 
recommendations, but also to sort of address the broader 
management challenges.
    Senator Lankford. Do you see progress?
    Ms. Farb. Yes, we see progress, but there is still, as a 
classic GAO statement, there is work remaining to be done.
    Senator Lankford. I just met with Gene Dodaro last week. I 
said do as much as you can to make your statements as blunt as 
possible and so they are clear, not safe, but clear.
    Where do you see, whether it be energy, education, or in 
health care, the greatest amount of progress or a success story 
that GAO can tell? This is an area that was raised; this is a 
success story to tell.
    Ms. Farb. I think on the quality front as well as the 
patient wait time front, the two systems that IHS has now put 
in place, those are addressing problems we found historically 
to be an issue. And so those two efforts, I think, again, we 
have to watch over time to see how that plays out, but those 
are addressing it. I do not know if my colleagues want to 
address that or energy.
    Senator Lankford. Just identify your name when you step up.
    Mr. Rusco. My name is Frank Rusco. I am in the Energy Group 
at GAO.
    Where we see the most progress, and what I would call 
hopefulness, is where tribes have been able to take more 
control and more self-determination over the process. For 
example, I think we are going to see for the first time a tribe 
enter into a full TERA agreement.
    Senator Lankford. How long has that taken to have the first 
tribe do that?
    Mr. Rusco. This will be the first and it hasn't happened 
for, I don't know, nine years. I don't know when that was.
    Mr. LaCounte. It was 2005.
    Mr. Rusco. In 2005, okay, thank you. Thirteen years.
    Senator Lankford. So yes, fourteen years, let's say.
    Mr. Rusco. Yes.
    Senator Lankford. And it is not done yet. It is getting 
close?
    Mr. Rusco. It is not done. Yes.
    Senator Lankford. So the question is, how do we have a 
second one and does it take another 14 years to have a second 
one? Do you feel like the process is in place and the test has 
been done for the first one to have kind of autonomy to be able 
to make those decisions? Is the bureaucracy resolved enough 
that it a second one would take less than 14 years?
    Mr. Rusco. I hope so. I think the bureaucracy still needs 
work. The tribe that is going to do this has a huge amount of 
experience in the oil and gas business, and the tribe has huge 
experience in self-determination mechanisms. Both of those need 
to happen.
    Senator Lankford. Do you think I should bug the Acting 
Director about that and see what he thinks?
    Mr. Rusco. Absolutely.
    Senator Lankford. I think I am going to. What do you guess, 
because the energy side is one of the areas that I have several 
tribes in my State that really want to increase their energy 
footprint and be able to engage in this. But the bureaucracy 
has been so difficult for them that they just do not know if it 
is worth it to be able to go through it.
    How does this get better and how does a second tribe go 
through this in less than 14 years?
    Mr. LaCounte. Congress just made it better, to where I 
don't think that that is going to happen. The amendments to the 
TERA Act itself, I think, are going to take care of that 
problem. In speaking with Senator Hoeven's assistant just 
earlier, I was surprised to hear that the Osage Nation is 
looking at a TERA agreement.
    Senator Lankford. The Osage Nation has looked at that for a 
very long time, though. It has been something they have looked 
at and decided, not worth the trouble. They are one of those 
folks that I hope can lean and actually execute it.
    Mr. LaCounte. I am pretty familiar with the Osage and I am 
surprised to see that is the place they are going to try it. 
But I am excited to see it too, and we will do everything we 
can to help them out.
    Senator Lankford. That would be terrific. Let us know what 
we can do to be able to help on the other end of that as well, 
to be able to stay productive and engaged through the process.
    Admiral, I do want to be able to ask you a question as 
well. On the health care side, some of the tribes are doing 
joint ventures. In my State, if you want to go to a really 
beautiful new hospital, I can take you to some of the joint 
venture hospitals that some of the tribes have built in 
cooperation with the communities and municipalities around 
them. They are phenomenal facilities.
    The question becomes how frequently tribes can engage in 
that contract relationship, how often they can come back and 
say, we want to do another joint venture? Is there flexibility 
in that? Or is there the ability to say, I am sorry, you can do 
one or so every four or five years, but we do not really want 
to come back? Are there that many requests coming in for joint 
ventures on health care facilities that it is bogging down the 
system?
    Mr. Weahkee. Thank you, Senator Lankford.
    With regard to the joint venture program, I completely 
agree. The Cherokee Nation is building a beautiful outpatient 
facility. Muskogee Creek just completed a facility. Joint 
ventures are absolutely a great program.
    There is a correlation between the amount of funds that we 
receive through our health care facility construction program 
and the number of joint venture projects that we can fund. It 
has been about every two to three years that we will put out a 
solicitation and requests for proposals.
    I do believe, in speaking with our Office of Environmental 
Health and Engineering director, Gary Hartz, this year that we 
will likely put out a solicitation in 2019. We do receive many 
more applications than we can fund. There is always a surplus 
of applications or projects that we cannot get to because of 
lack of funds for that program. But I would agree, a very 
successful program. We go into an agreement for 20 years that 
we will staff that project, and we have many success stories 
out there as a result.
    Senator Lankford. We would like to be able to maintain 
those success stories.
    Mr. Chairman, may I ask one final question?
    Senator Udall. Please.
    Senator Lankford. Thank you.
    Mr. Dearman, can I ask about deferred maintenance and what 
you need? In BIE, that has been one of the concerns, the amount 
of deferred maintenance that is kind of scattered around the 
Country and the process to actually get to it.
    Is there a prioritization, is it each facility has a 
priority list, is there a national priority list, is there, 
basically, a check-off list to say, we know this is coming five 
years from now, or we know this is ten years overdue, twenty 
years overdue and we are working through that process? How do 
you prioritize those things on deferred maintenance?
    Mr. Dearman. Thank you, Senator.
    I am really thankful that Assistant Secretary Tara Sweeney, 
when she came in, she really sat all of us down, she sat us 
down, BIE and BIA and DASM down. And we really started looking 
at who has their hands in our facilities. As you are well 
aware, BIE has always worked with BIA and DASM to address 
facility issues.
    Right now we are looking at streamlining all the services 
to our schools. But to get to that point, we have to make sure 
the data is in our system. We call that our Maximo system, that 
all those schools enter their deferred maintenance or projects 
that need to be done.
    DASM has actually started pulling all the what we call 
facility condition index reports where the schools enter it, 
and we are starting to prioritize our schools based on that. 
However, as we are going around doing the safety inspections, 
and this is the first year that BIE is doing all the safety 
inspections, we are really working with the schools to make 
sure that all the data is entered in the Maximo system along 
with working with BIA's regional facilities.
    Before we prioritize any school replacement, we have heard 
loud and clear our tribes want to be involved in that. They 
want to have consultation. But we are really starting to 
compile the data right now and looking at all the needs.
    Senator Lankford. What are you using as your safety 
standard? Is that a national standard you are using, or is that 
State fire code? What is the standard you are choosing to use 
for your safety standard?
    Mr. Dearman. That is a very good question, because that is 
part of the GAO findings and recommendations. We are working 
again with the Deputy Assistant Secretary of Management, their 
shop, to make sure that the policy set forward is for BIE and 
BIA. So there is policy that we are putting out. I am not real 
familiar with what standards they are utilizing to create the 
policy, but we are creating policy and putting it in our Indian 
Affairs manual.
    Senator Lankford. Obviously, it helps on a national level 
or even on the State level, where there are multiple campuses 
in the State, that there is a consistency of what is considered 
safe and what is not, and what is a fire code violation, an 
electrical violation, plumbing or whatever it may be, to be 
able to know where to prioritize that, having either a national 
standard or at least a State fire marshal type standard to say, 
we are all going to work from a common set looking around the 
entire State or region to be able to know what we are dealing 
with. At times, there has been some pushback to having that, 
just saying, hey, this doesn't necessarily apply in different 
places. But we have to have some standard that we are working 
with that is consistent or you cannot prioritize the projects.
    Mr. Dearman. Yes.
    Senator Lankford. We look forward to maintaining that 
dialogue and seeing where that goes. What is the time period 
when you think that is done?
    Mr. Dearman. I would have to go back to the department and 
find out.
    Senator Lankford. Please just contact us and let us know 
what the date is when you look like you are going to have all 
that information, and then start to be able to make the 
decisions from there.
    Mr. Dearman. Okay.
    Senator Lankford. Thank you. Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Lankford.
    Ms. Farb, you heard the discussion about the Indian Health 
Service doctor and what happened in terms of abuse. Referring 
to that and thinking of that, has the GAO ever done a review of 
IHS's management's documentation of employee misconduct and use 
of transfers, administrative leave and duty reassignments?
    Ms. Farb. Not to my knowledge have we done that kind of 
study. We have definitely looked at, in other programs, issues 
like credentialing like Admiral Weahkee referred to. We looked 
at that in the VA program and found lots of issues. We have a 
whole body of work on that.
    For IHS specifically, we have not looked at transfers of 
employees or documentation of those types of issues, but we 
would be happy to take a look into that if that is something 
that the Committee is interested in.
    Senator Udall. And you would be willing to work with my 
staff to start on that work?
    Ms. Farb. Absolutely.
    Senator Udall. Great. Thank you.
    Mr. Dearman and Mr. LaCounte, between 2012 and 2018, the 
Department of Interior spent $1.2 million to fix the fire alarm 
and lighting protection systems at the Pine Hill School in New 
Mexico. It's my understanding the major contributing factor for 
these costs and timeline overages was inaccurate project 
scoping and contracting. GAO documented similar issues with 
contracting in a 2017 report.
    What is Interior doing to increase management oversight of 
procurement personnel and contracting officers?
    Mr. LaCounte. I am not aware of the $1.2 million. I almost 
wonder if that is the $1.2 million provided to the school for 
maintenance. Whether it was used on those systems or not, I 
don't know the answer to that.
    To address the contracting issues in this particular 
situation, obviously, you are very familiar with, we have put 
that process directly at the central office to handle the Pine 
Hill School at this time. Going down the road, in the future, 
the BIE will have its own administrative staff, including 
contracting officers, which I believe will make that much more 
effective, because they will be directly responsible to the BIE 
as opposed to having a layer between BIE and BIA. Even though 
Mr. Dearman and I work very well together, in the past, we know 
that was not the case. I think that, in and of itself, will 
make things much stabler into the future. To that, I would 
defer to Mr. Dearman.
    Mr. Dearman. Senator Udall, thank you for the question.
    I really think it is a lack of communication and 
understanding the system that goes all the way back to 2012. 
Again, like I said earlier, Assistant Secretary Sweeney sat us 
all down and really started looking at who does what within our 
system to take care of our schools.
    It was a learning process. It was a very good process, and 
I really appreciate your support in making sure things are 
getting done. But things are getting done now because of the 
leadership she has provided BIA and BIE that should have been 
done years ago.
    As far as going back, we have been communicating with the 
school board, with the school leaders. We have to really make 
sure that we are coordinating the communication between bureaus 
as well. We have actually been meeting with Ramah School, we 
had a meeting with them last week and we met with your staff. 
One of the things they are requesting is to be able to handle 
their own contracts. We are discussing that, we have had BIA 
involved and we are working with the school.
    I really think improving communication and making sure we 
are there to assist the tribes that may need a little bit more 
help with contracting would eliminate that, really being at the 
table with them. And we have increased our regular meetings 
with Ramah, the school board and the school leaders. I know BIA 
is meeting with them, BIE is meeting with them. We at least 
touch base bi-weekly and as needed. DASM is going down as well. 
So that kind of communication is needed and is established now.
    Senator Udall. Great.
    Mr. LaCounte, the June 2018 DOI-OIG report revealed that 
the BIE and BIA spent $1.2-plus million. That was documented in 
their report. Will both of you commit that you will meet with 
my staff this month to discuss contracting oversight for BIE 
facilities projects?
    Mr. Dearman. Yes.
    Mr. LaCounte. Yes.
    Senator Udall. Thank you.
    Mr. Dearman. Senator, may I update you on one thing?
    Senator Udall. Please, go ahead.
    Mr. Dearman. We are in the process of taking over contracts 
within BIE. That is also really going to help us. It will help 
us establish timelines and more consistency in servicing our 
schools.
    I know Mr. LaCounte alluded to that. We have been working 
with GAO and discussing that. We are in the process of taking 
over contracting.
    Senator Udall. Great. Thank you both very much.
    Mr. Chairman, I yield back.
    The Chairman. [Presiding.] Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Let me also echo some of the concerns I heard from the 
Ranking Member earlier with respect to Dr. Weber. I am hoping 
we are having a hearing on this. It is outrageous to me that it 
went on so long, the predatory nature of this doctor, nobody 
came forward, and it continued over so many years. I just want 
to put that on the record. I am looking forward to further 
hearing, understanding what happened, and the accountability 
and how we are going to prevent this from happening in the 
future.
    Let me jump back to the working relationship between BIE 
and IHS. Director Dearman, in previous testimonies, you have 
mentioned that your office is diligently working to address the 
varying and developing needs of our students, including 
behavioral and mental health support services. Can you please 
talk a little bit further about this partnership with IHS and 
how you are planning to overcome some of the IHS limitations 
that were outlined in the GAO report?
    Mr. Dearman. Yes. Thank you, Senator.
    We have established meetings with IHS. As a matter of fact, 
two weeks ago, we were at IHS discussing the MOA that is 
servicing our schools. As you are well aware, a lot of our 
schools are so isolated, one size does not fit all. We really 
have to go in and work with IHS to see what resources are 
available, whether they be tribal or government resources, and 
providing training. For example, right now we are working on 
regional training to really deal with suicidal ideations or 
behavioral health within our system.
    Last year alone, we had 26 suicide attempts. That was just 
captured with our BIA-operated and maybe a few of our tribally-
controlled that choose to report to us. We had two suicide 
completions.
    As we have stated, until we get our emotionally and 
physically our students healthy, they are not going to learn. 
We really are establishing strong rapport and strong 
relationships to where we are individualizing the services that 
each school and region receives from IHS.
    Senator Cortez Masto. Admiral, can you elaborate a little 
bit more on the IHS involvement?
    Mr. Weahkee. Yes, ma'am. So, the umbrella agreement that we 
have here at the national level enables local level agreements 
to be made. As Mr. Dearman mentioned about one size not fitting 
all, we do really need to look at and tailor the services as 
best meets the needs for the Supai in the bottom of the Grand 
Canyon or those living in Riverside County, Los Angeles, which 
is an urban site in metropolitan LA. The needs are very 
different and the settings. So really tailoring those 
agreements at the local level is vitally important.
    Senator Cortez Masto. I do not mean to interrupt but I only 
have so much time.
    So you are in the process of setting forth those strategic 
plans, and you are working with local law enforcement, and 
local mental health and whoever else is necessary to address 
this issue, if it exists? And I realize not all of our Native 
American communities have law enforcement.
    Are you putting in place those strategic plans? And do you 
have, looking at the map as a region and actually going after 
and addressing all of those concerns with respect to our 
students?
    Mr. Dearman. As far as the schools what we are doing, 
Senator, is, matter of fact, right before the meeting, I met 
with Charlie Addington, who is the Director of OJS, Bureau of 
Indian Affairs. We are looking at our schools, and who has 
jurisdiction, and what law enforcement services they have.
    We are also looking at some of our security contracts that 
some of our schools utilize. Instead of using them for 
contracts outside of the government, but utilizing our own OJS 
officers and hiring to where we have more control. We are 
addressing that. We have been questioned, too, that as part of 
our strategic direction, that was not one of the six goals 
identified through tribal consultation. But that does not mean 
we are not addressing it, because we are.
    Senator Cortez Masto. Okay. I appreciate that.
    And do you have the resources? Does the current budget that 
the Administration has put forth, does it provide the resources 
that are necessary to achieve this goal you have set?
    Mr. Dearman. With the current budget, the way it will work 
with our schools is the schools will take it from their 
budgets. An example would be that some of the schools receive 
funding for security purposes. And some of the schools, we have 
a line item just for school security and safety that we really 
distribute out to the schools that will identify a need. But it 
depends on the amount of resources that the schools generate, 
based on the ADM, student enrollment.
    Senator Cortez Masto. So let me just say this. There are 
two BIE schools in Nevada, the Duck Water Shoshone Elementary 
School and the Pyramid Lake Junior-Senior High School. If I 
come and talk with them about their needs, will they tell me 
that you have reached out to them on this very issue when it 
comes to mental health and behavioral health issues for their 
students?
    Mr. Dearman. I am not sure if the two sides would, because 
they are both tribally-controlled. We assist tribally-
controlled as needed. Anytime anything happens, we try to reach 
out to the tribally-controlled schools and see if they want our 
assistance.
    Senator Cortez Masto. Thank you. I appreciate that.
    I notice my time is up.
    The Chairman. Admiral Weahkee, in information you provided 
to this Committee regarding Dr. Weber, you included hiring of 
an independent contractor to review the agency and its 
personnel involvement in handling of the matter. Can you 
explain to the Committee what the Indian Health Service intends 
to do with the findings of this investigation, and how Indian 
patients can be assured that they will receive safe, reliable 
health care going forward and that we don't have a repeat of 
this incident?
    Mr. Weahkee. Thank you, Senator Hoeven.
    What we hope to do, objectively, again, with the third-
party eye, is to have somebody look back and determine where 
the missed opportunities took place. We want to make sure that 
we gauge things against the policies that were in place at the 
time. Were those policies followed? If not, where the 
breakdowns occurred and who should be held accountable for 
those policies not being put into place.
    Ultimately, the goal is to fill in those gaps, make sure 
that we have policies, that people know what the policies are, 
that we are training on them, and that we are creating the 
culture of accountability and the just culture I mentioned of 
people not fearing retaliation for reporting up.
    The Chairman. Are you confident you are taking all 
necessary steps to make sure you do not have a repeat, that if 
you have any issues right now going on right that you may not 
be aware of, and that you don't have a repeat of this type of 
instance in the future?
    Mr. Weahkee. Senator, I do know as a result of the scrutiny 
and the level of marketing, if you will, that we have done to 
our complaint hotline, we have become aware of additional 
instances of issues that needed to be resolved. And we have 
moved forward on several termination actions as a result. We 
have made several referrals to the IG in the last several 
months about matters that have come to our attention after 
identifying the issues needed to be reported immediately.
    The Chairman. And you will provide that information to our 
Committee, make sure they are fully addressed, and that you 
have all necessary systems in place to avoid any repeat of this 
type of incident to the maximum extent possible?
    Mr. Weahkee. We absolutely do, sir, yes, sir.
    The Chairman. According to the March 2019 High Risk Series 
Report, the Indian Health Service planned to complete 
implementation of all of the outstanding recommendations by 
2019. So these have been open for two years. As you know, this 
is our fourth hearing on these findings.
    Please detail for me when you expect to have those closed 
out. As I have said, we will have hearings until they are all 
closed out. What do you anticipate the timeline to be for the 
remaining findings?
    Mr. Weahkee. Thank you, Senator.
    Many of the older recommendations were from our Purchased 
and Referred Care Program or what was previously known as our 
Contract Health Service Program. Those were the oldest of our 
recommendations. The vast majority of those have been 
addressed.
    With the publication of our revised policy, we have made 
the request to GAO that they close those out. When those are 
closed out, we are basically left with three open 
recommendations, two of those being patient wait times and 
quality care initiatives that we have put into place that just 
need to be monitored over time to ensure the changes we have 
made are sustained and lasting.
    The third is a relatively new recommendation that we 
received related to workforce and the need to look at how much 
resource we are spending on contract providers. We are putting 
in place the ability to track how much we are spending on 
contract providers versus bringing those providers on full 
time.
    Hopefully, with the GAO seeing our good progress, we will 
have all of those closed within a very short few months. We 
have been monitoring patient wait times for almost a year now, 
but they need to see that we have some sustainability there.
    The Chairman. Director Farb, does that square with what you 
anticipate is realistic for addressing those recommendations?
    Ms. Farb. Yes, sir. They submitted documentation during the 
course of planning for this hearing. We have not reviewed all 
of it. I believe it is possible that three of those 
recommendations may be ready to be closed.
    There is another one that involves some monitoring. We want 
to make sure we understand what is being done to address that. 
What Real Admiral Weahkee mentioned in terms of the remaining 
three recommendations, that is correct. That is what we are 
looking for, sort of monitoring over time to make sure we are 
doing what we say we are doing.
    The Chairman. I have some additional questions but I am 
going to turn to Senator Tester at this point.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman and Ranking Member, 
for having this hearing.
    I am going to talk about staffing for a second with Tony 
and the Admiral. I will start with Tony.
    How would you assess your overall staffing and education in 
the schools?
    Mr. Dearman. At the school level, that fluctuates, that 
varies. Above the school, what I call our support, our 
technical assistance, we are at 49 percent. But I would have to 
go back, Senator, and get you the exact numbers.
    Senator Tester. Teachers in the classroom?
    Mr. Dearman. I would have to go back and get the figures.
    Senator Tester. Would it be, do you think, higher than 49 
percent?
    Mr. Dearman. Yes, it would definitely be higher than 49 
percent. The thing with that is we would only be able to 
capture the BIE-operated. But yes, it would be higher than 49 
percent.
    Senator Tester. That is all I want, the BIE staff. The 
other guys, that is your problem. The others is their problem. 
I would love to know where it is at for a couple of reasons. If 
you don't have teachers in the classrooms, and good teachers in 
the classrooms, we have a problem.
    Have you guys been able to do any sort of assessment as to 
the teachers you have and their ability to relate with Native 
American culture?
    Mr. Dearman. Thank you, Senator. That is one of the 
problems that we have been discussing with our tribes. We 
really feel like that is one of the reasons we have such a high 
turnover, because a lot of the teachers don't understand the 
community or culture that they are going into. As we have been 
meeting with tribes and our schools, we really encourage our 
teachers to get involved in the community actions. We have 
developed, working with GAO, and we are fixing to submit by the 
end of this month, the workforce plan which really takes a deep 
dive into our entire workforce.
    Senator Tester. And I am assuming, I mean, the President's 
budget just came out yesterday, but I am assuming that we will 
probably have a hearing on that budget at some point in time. I 
am assuming you are not at 100 percent on your teachers.
    Mr. Dearman. No, sir, we are not.
    Senator Tester. Okay. That budget going forward, and you 
can say, I do not know, we will look into it, if you don't 
know, because we will have a hearing on it. Did you make 
allowances to make sure you had the budget to be able to hire 
100 percent of what you need?
    Mr. Dearman. The majority of our staff at the school level 
is hired through ISEP. Looking at the current budget, we are 
looking at about $1 less WSU that is submitted for our schools.
    Senator Tester. Tell me what ISEP is.
    Mr. Dearman. ISEP is what a majority of our schools would 
utilize.
    Senator Tester. What does that mean? What is that acronym?
    Mr. Dearman. Indian Student Equalization Program. That is 
what the majority of our schools would utilize to hire staff.
    Senator Tester. Gotcha. That is the line item. You said 
that line item is what?
    Mr. Dearman. With the feds and its proposed budget?
    Senator Tester. Yes.
    Mr. Dearman. It is about $1 less than last year per 
student, WSU.
    Senator Tester. Okay. Does that get you where you need to 
be?
    Mr. Dearman. We can, we are, again, Senator --
    Senator Tester. So, this is not the Appropriations 
Committee but this is the authorizing, I believe, the last time 
I checked. We kind of need that stuff. And I will tell you why 
it is so important.
    The Chairman. You are on the Approps Committee.
    Senator Tester. I am and so are you. So we can work 
together on that.
    But why it is important, is that if we want to, in my 
opinion, if we want to get poverty out of Indian Country, one 
of the foundational blocks is a good education. If we do not 
have that foundational block, it doesn't matter what we do. I 
believe we are still going to have problems. So take a look at 
that.
    As long as I have you and the mic is hot, what about the 
construction budget? Is that in your bailiwick too? Is that in 
your oversight or purview?
    Mr. Dearman. It is not. We work with DASM.
    Senator Tester. Okay. Darryl, is that part of yours? No? I 
can hear that sigh of relief now. Okay, go ahead.
    Mr. Dearman. I can address part of that, Senator. Again, 
the department supports the President's budget, as you are 
aware. We realize that with the shortcomings in the 
construction piece with the proposed budget, we really are 
looking forward to working with Congress with the 
infrastructure.
    Senator Tester. Here is the deal. You have to support the 
President's budget; he is your direct boss. We are over here as 
one of those branches of government that you have to deal with. 
But we cannot fix it unless we know why to fix it. We are not 
going to just throw a number at the wall. And by the way, I 
would love to have, if you could just get back to us on where 
you are for teacher staffing, not talking aides, secretaries, 
just classroom teachers, that would be great.
    Admiral, good to see you again. Kind of the same question. 
How are you on staffing, where are you? Are you at 50 percent 
or 75 percent? If you do not have it, I will make the same 
request to you.
    Mr. Weahkee. Thank you, Senator Tester.
    Overall, our vacancy rate is 20 percent across all job 
categories in the agency. When we speak specifically about 
health care providers, we get up into the 30 to 32 percent 
depending on which profession we are talking about. Our hardest 
to fill are our physicians, nurse practitioners, physician 
assistants.
    Senator Tester. Let me ask a couple things on that. Do you 
have the numbers on your general practitioners, where they 
would be?
    Mr. Weahkee. I would say 29 percent.
    Senator Tester. I am sorry I am going over time. You can 
gavel me out at any time.
    Are you guys able to use physician assistants and nurse 
practitioners to fill some of those slots?
    Mr. Weahkee. We have used that strategy to the extent that 
we are able. There are instances where you must have a 
physician to provide oversight for a PA and in some States, a 
nurse practitioner as well.
    Senator Tester. Depending on the State or are they all that 
way?
    Mr. Weahkee. Depending on the State for the nurse 
practitioners.
    Senator Tester. I serve on the VA Committee and they are 
always talking about by the time we get done hiring, getting 
all the questions asked on a doc, several months have passed 
and that doc already has a job somewhere else, getting a 
paycheck.
    Do you also have that problem at IHS?
    Mr. Weahkee. We have had that problem historically. Some of 
the quality improvement efforts that we are putting in place, 
like the credentialing software system, it is helping to 
alleviate that, especially for those providers already in-
house.
    Senator Tester. So average time, and I could ask this 
question of Tony also. You can get me this if you can, Tony. 
Average time it costs from the time a job opens and you get 
applicants to the time you get it filled, any metrics on that?
    Mr. Weahkee. We use an 80-day benchmark for the hiring 
process, but when you build in the required background 
investigations and the credentialing process, six months is a 
best-case scenario.
    Senator Tester. Are there things we can do as Congress to 
help cut that time down, to cut some of the red tape? Docs are 
hard to get. They are hard to get in the private sector, they 
are hard to get everywhere. I can't imagine a doctor standing 
around for six months waiting for IHS, VA or any other Federal 
agency, as far as that goes, to say, yes, we are going to hire 
you.
    Mr. Weahkee. We can look to what the private sector does. 
They send individuals out to job fairs and they have a contract 
in hand. They can negotiate a salary and get a signature on the 
spot. We don't necessarily have that ability within the Federal 
Government.
    Senator Tester. Assuming it is welcome if we could cut down 
some of the time, though, right?
    Mr. Weahkee. I am sorry, sir?
    Senator Tester. You would welcome the opportunity if we 
could cut down some of the time?
    Mr. Weahkee. Absolutely.
    Senator Tester. I want to thank you all. Jessica and 
Darryl, I am sorry I didn't pick on you guys. I appreciate you 
all being here. Thank you very much for the work you do. We 
will follow up later on the budget. Thank you very much.
    The Chairman. Did you get in all your questions?
    Senator Tester. Yes. I never get all my questions in, but I 
am done.
    The Chairman. I have just a couple more. Then I will turn 
to Senator Cortez Masto to finish up.
    Director Dearman, I think Senator Tester was getting at the 
same thing I wanted to address. That is your staffing and your 
vacancies. Do you feel like you are making progress on filling 
those vacancies? The other thing is, do you feel you are on top 
of any work environment issues as far as any concerns about 
hostile work environment or any of those things, which may go 
to turnover? So if you could kind of you address both those.
    Mr. Dearman. We are working on capacity. When I became 
director, I believe we were at about 43 percent staff. Right 
now, we are about 49. We are thinking out of the box and 
looking at ways of how we can actually recruit and retain 
people. And we are looking at incentives as far as recruitment 
and retention incentives. We are looking at advertising 
positions outside of areas, out in the communities where we 
actually have more Indian applicants.
    And where we really don't have capacity, we are actually 
utilizing contracts. An example of that, Senator, is, one of 
the issues we are talking about is bringing on people. In one 
of the OIG findings, they documented that we were not 
completing our background checks.
    What we have done is we have contracted with the Interior 
Business Center, which is really coming in, helping us get 
caught back up while we build up our capacity. So we are not 
using our capacity as an excuse, by no means, but we are 
continuing to work on our capacity through the hiring process.
    The Chairman. Any work environment issues, do you feel you 
are addressing them fully and properly and expeditiously?
    Mr. Dearman. I really feel like we are on top of that 
issue. The department has actually mandated that all of our 
employees go through harassment training. We are constantly 
getting out there and making sure that our employees are aware 
that if they feel they are harassed or in a bad environment, 
there is a process of reporting. So all of our employees, all 
the way down to the school level, are aware of that.
    The Chairman. Thank you.
    Director LaCounte, we just passed the Tribal Resource 
Energy Agreement about helping our tribes across the Country 
develop their energy resources, traditional, renewable or 
whatever, based on what they want to do. It is up to you to 
help them implement that. How is that proceeding?
    Mr. LaCounte. Within Indian Affairs, there is a branch that 
is called Indian Energy and Economic Development. They work 
directly for the Assistant Secretary. It is their charge to get 
out and work hand in hand with any tribes who have applied for 
any type of TERA agreement or even go out and promote.
    They don't work directly for me but they do work for Indian 
Affairs and the Assistant Secretary. It is their charge to do 
it. That is probably their priority right now, to take what you 
have done and share the knowledge, provide the training and the 
assistance to help tribes if they are interested in doing so, 
but more so, making them aware of the changes that have been 
made and why it is much more attractive than it was prior to 
the amendments.
    The Chairman. You have 12 outstanding findings from the GAO 
High Risk Report. Obviously, that is a concern. Tell me how you 
are going to get those resolved and in what kind of timeline?
    Mr. LaCounte. I will do the best I can to get them 
resolved. I am fully confident that we have done everything 
that we can within BIA, including implementing the solutions in 
the field. They are actually using them.
    Unfortunately, I understand that no job is finished until 
the paperwork is done, but I had no idea the paperwork was 
going to be as big as the job itself. That is what I am finding 
out. But I am fully confident we have done what we need to do 
and it is working in the field. I am going to do what we can.
    I talked with Mr. Rusco from GAO earlier today. We met with 
them the week before last. He advised me that I was not so good 
at hiding my frustration as I thought I was within that 
meeting. I will work harder on that, but I am going to work 
hard on getting these things closed out because I am very 
frustrated.
    The Chairman. I share the concern on paperwork sometimes, 
but it is very important that the underlying issue is fully 
addressed and that we know it is fully addressed.
    So with that, I will turn to Director Farb, your sense of 
the timeline to get these 12 remaining findings resolved? Are 
you making progress and what is your sense of what the 
realistic timeframe is to get them addressed and the paperwork 
done?
    Ms. Farb. I am going to ask my colleague, Frank Rusco, who 
represents the Indian Energy Issue Portfolio to come and answer 
that question.
    Mr. Rusco. Thank you. I am Frank Rusco.
    We got, I will call it an avalanche of paperwork about two 
weeks ago from the department. We looked through a lot of it. 
We still have some questions about whether the intent of the 
recommendation has fully been met. We do need to go out in the 
field and see, as Mr. LaCounte says, how it is working in 
practice.
    We saw a number of things that we are still concerned 
about. We need to see timelines set for certain activities. 
Then we need to see monitoring to make sure the different 
offices and agencies are meeting the timelines that they have 
set.
    The Chairman. Do you have an estimate as to what is 
realistic to wrap up these 12?
    Mr. Rusco. I don't. We are going out at the end of the 
month to the Indian Energy Service Center. We will also talk to 
the Indian Energy and Economic Development folks and we will 
ask them how things are working in the field. If they are, then 
there are a number of those recommendations that will be 
closed. I am going to say four or five. The other things, we 
just need to sit down and talk further with BIA to see if they 
can show us how things are actually implemented.
    The Chairman. As you get a sense of that, would you please 
provide a follow-up summary to our staff, our Committee?
    Mr. Rusco. Absolutely. Will do.
    The Chairman. Thank you.
    With that, Senator Cortez Masto.
    Senator Cortez Masto. Actually, I am good. I will submit my 
question for the record. Thank you.
    The Chairman. All right. Then if there are no more 
questions for today, members may also submit follow-up 
questions for the record. The hearing record will be open for 
two weeks.
    I appreciate your being here. It is very important that we 
get these remaining issues addressed. They are important. 
Obviously, we will do everything we can to get them done in a 
timely way, as well as making sure they are fully covered.
    Thank you to the GAO for your work and being here today as 
well.
    With that, our hearing is adjourned.
    [Whereupon, at 4:08 p.m., the Committee was adjourned.]

                            A P P E N D I X

Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Tony Dearman
    Questions. Director Dearman has previously mentioned that his 
office is diligently working to address the varying and developing 
needs of students in the two BIE schools in Nevada, including 
behavioral and mental health support services. Explain further about 
this partnership with IUS and how you're planning to overcome some of 
the IHS limitations that were outlined in the GAO report?

    How did the shutdown affect your ability to address the challenges 
raised by GAO? Are there any long-term ramifications that we should be 
watching out for?

    Answers. The Bureau of Indian Education (BIE) is committed to 
creating positive, safe, and culturally relevant learning environments 
where students gain the knowledge, skills, and behaviors necessary for 
physical, mental, and emotional well-being. BIE recognizes the 
importance of student mental and behavioral health and has identified 
it as one of its six Strategic Direction goals. BIE is especially proud 
that the final student mental and behavioral health goal includes 
several action items that were offered by Tribes and Indian Country 
leaders during the Tribal consultation process last year.
    One critical component of Goal Two of the Strategic Direction is 
mental and behavioral health professional development and training. 
Over the course of the last year of implementation of Goal Two, the BIE 
has certified approximately 329 staff members in Youth Mental Health 
First Aid. The Youth Mental Health First Aid training consists of an 8-
hour public education program that introduces participants to the 
unique risk factors and warning signs of mental health problems in 
adolescents, builds understanding of the importance of early 
intervention, and teaches individuals how to help an adolescent in 
crisis or experiencing a mental health challenge. The training utilizes 
real world role-playing and simulations to demonstrate how to assess a 
mental health crisis; select interventions and provide initial help; 
and connect young people to professional, peer, social, and self-help 
care.
    Additionally, in December 2016, the Indian Health Service (IHS) and 
BIE entered into an interagency agreement intended to increase access 
to mental and behavioral health services for students attending BIE-
funded schools. Under this 1 0-year agreement, the agencies will work 
collaboratively to establish local partnerships through Memoranda of 
Agreement among local IHS mental health programs and BIE-funded schools 
in order to provide on-site mental health assessment and counseling 
services to BIE students.
    With regard to the recent lapse in appropriations and subsequent 
shutdown, work related to GAO closures and the Strategic Direction 
paused for the duration of the lapse. This resulted in a delay to GAO 
and Strategic Direction work. Specifically, during the month prior to 
the shutdown, five percent ofBIE's Strategic Direction actions were 
reported as being behind schedule. In the month following the closure, 
36 percent of Strategic Direction actions were reported as behind 
schedule, an increase of 31 percent. However, the BIE has refocused its 
efforts and is working to catch up on its Strategic Direction work 
commitments as quickly as possible. Currently, 28 percent of Strategic 
Direction actions are behind schedule and the BIE is continuing to work 
hard every day to close this gap and deliver on its year-one Strategic 
Direction milestones.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Darryl LaCounte
    Question 1. According to GAO, ``BIA officials said the agency does 
not have the staff or resources to implement a comprehensive workforce 
planning system to ensure it has staff in place at its agency offices 
to meet its organization needs.'' Does the President's budget include 
the resources that you need to make those assessments? If not, why not? 
If so, when can we expect this workforce evaluation?
    Answer. As indicated during the March 2019 SCIA Hearing on the GAO 
High Risk Designation ofBIA, the BIA continues to prioritize filling 
vacancies. Workforce planning is ongoing. We have worked closely with 
Indian Affairs Human Capital and Budget staff, as well as BIA subject 
matter experts, to conduct an assessment. As with any budget scenario, 
resources are identified for priorities.
    The BIA Office of Trust Services, and Indian Energy Service Center 
have finalized the draft workforce evaluation, which will be the 
guiding comprehensive internal document by calendar year end.

    Question 2. How did the shutdown affect your ability to address the 
challenges raised by GAO? Are there any long-term ramifications that we 
should be watching out for?
    Answer. The shutdown did not create long-term ramifications for the 
Indian Energy Service Center. Some activities, like the Mineral User 
Group meeting, which was scheduled for January 2019, had to be 
rescheduled. In addition, the processing of permits and leases were 
halted, but activities resumed when the shutdown ended. While the 
shutdown did create a backlog of work, the backlog is being addressed 
and the staff is attempting to resume a normal workload.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Jessica Farb
    Questions. In its 2017 High Risk Report, GAO noted that 
insufficient reimbursements for health services delivered by providers 
outside ofiHS led to ``gaps in services (that] sometimes delay 
diagnoses and treatments, which can exacerbate the severity of a 
patient's condition and necessitate more intensive treatment.'' The 
2019 High Risk Report says IHS has taken steps to identify providers 
who don't accept the Service's low reimbursement rates. To what portion 
of the underlying issue do you attribute awareness of providers who 
don't accept IHS rates, versus low reimbursement rates that have 
created narrow networks of providers? How much would IHS have to 
increase reimbursements to address the issue? When you're evaluating 
the progress of these agencies in meeting their targets, how do you 
measure or account for the sustainability of their solutions? How do we 
make sure that agencies don't backtrack in areas where they've made 
improvements?

    How did the shutdown affect your ability to address the challenges 
raised by GAO? Are there any long-term ramifications that we should be 
watching out for?

    Answers:
GAO has recommended that IHS increase reimbursements and decrease 
        payments
    Increasing third-party reimbursements. When services are not 
available at federally operated or tribally operated facilities, the 
Indian Health Service (IHS) may pay for services provided through 
external providers through its Purchased/Referred Care (PRC) program. 
The PRC program is funded through annual appropriations and must 
operate within the limits of available appropriated funds. In our 2017 
High Risk Report, we reported that although funding appropriated for 
the PRC program had recently increased, the program is unable to pay 
for all eligible services. We also reported that gaps in services 
sometimes delay diagnoses and treatments, which can exacerbate the 
severity of a patient's condition and necessitate more intensive 
treatment. We concluded that one way for IHS to increase the funding 
available for eligible services was to increase its third-party 
reimbursements from programs such as Medicaid. \1\ The Patient 
Protection and Affordable Care Act (PPACA) expanded or created new 
health care coverage options, including a state option to expand 
Medicaid eligibility to individuals with incomes at or below 138 
percent of the federal poverty level. We estimated that PPACA's new 
coverage options may allow hundreds of thousands of American Indian/
Alaska Native people to obtain health care benefits for which they were 
not previously eligible, assuming all states expanded their Medicaid 
programs. We reported that, if American Indian/Alaska Native people 
enroll in one of these options and choose to receive care through IHS, 
increased revenue from third party payers such as Medicaid could free 
up IHS resources and help alleviate pressure on the IHS budget.
---------------------------------------------------------------------------
    \1\ Indian Health Service: Most American Indians and Alaska Natives 
Potentially Eligible for Expanded Health Coverage, but Action Needed to 
Increase Enrollment. GAO-13-553. Washington, D.C.: September 5, 2013.
---------------------------------------------------------------------------
    Reducing payment rates. In addition to the potential financial 
benefits of increasing its third-party reimbursements, in 2013, we 
found that IHS could achieve cost savings that it could then direct 
toward additional patient care if it reduced its PRC payment rates for 
physician and nonhospital care. We found that in 2010, the PRC program 
primarily paid physicians at their billed charges, which were 
significantly higher than what Medicare and private insurers would have 
paid for the same services. \2\ Specifically, we estimated that the PRC 
program paid twice as much as what Medicare would have paid and about 
one and a quarter times as much as what private insurers would have 
paid for the same physician services provided in 2010. We concluded 
that setting PRC program physician and other nonhospital payments at 
rates consistent with Medicare would enable IHS to achieve needed 
savings that could be used to expand patient access to health care. In 
response, the Department of Health and Human Services issued a final 
rule on March 21, 2016 to apply Medicare payment rates to all 
physicians and other nonhospital services provided through PRC--saving 
the agency over $18 million. Given the possibility this change could 
affect access to care in certain areas if providers do not accept the 
lower payment rates, we recommended that IHS monitor PRC program 
patient access to physician and other nonhospital care. In response to 
this recommendation, IHS developed an online tool that enables the 
agency to track providers that do not accept IHS's payment rates. While 
we have not done work to address the issue of lower payment rates 
creating narrow provider networks, we recommended that IHS monitor 
patient access in order to help ensure that does not happen. We also 
have ongoing work looking at how Medicaid expansion has affected health 
care coverage and services for American Indians and Alaska Natives.
---------------------------------------------------------------------------
    \2\ Indian Health Service: Capping Payment Rates for Nonhospital 
Services Could Save Millions of Dollars for Contract Health Services. 
GAO-13-272. Washington, D.C.: April 11, 2013.
---------------------------------------------------------------------------
GAO's recommendation follow-up procedures
    Agencies have a responsibility to monitor and maintain accurate 
records on the status of our recommendations. These requirements are 
detailed in two OMB circulars--OMB Circular A-50 and OMB Circular A-
123. Among the requirements included are that the agencies (1) appoint 
a top-level audit follow-up official, (2) maintain accurate records on 
the status of recommendations, and (3) assign a high priority to 
following up on audit recommendations.
    Although agency officials are responsible for resolving audit 
findings and recommendations, GAO's continued attention to 
recommendations can help bring about the benefits of the audit work. We 
actively monitor the status of our open recommendations--those that 
remain valid but have not yet been implemented--and post our findings 
to a recommendations database, which is updated regularly and publicly 
available at https://www.gao.gov. The database records information on 
recommendations and on whether timely and appropriate corrective 
actions have been taken.
    Because agency personnel serve as a primary source of information 
on the status of recommendations, we request that the agency also 
provide us with a copy of the agency's statement of action to serve as 
preliminary information on the status of open recommendations. We 
follow up by discussing the status of recommendations with cognizant 
agency officials; obtaining copies of agency documents supporting the 
recommendations' implementation; and performing sufficient work to 
verify that the recommended actions are being taken and, to the extent 
possible, that the desired results are being achieved.
    A recommendation is closed when it has been implemented, when 
actions have been taken that essentially meet the recommendation's 
intent, or when circumstances have changed and the recommendation is no 
longer valid. GAO staff obtain verification, with sufficient supporting 
documentation, that an agency's reported actions are being implemented 
adequately before closing out a recommendation. GAO staff may interview 
agency officials, obtain agency documents, access agency databases, or 
obtain information from the agency's Office of the Inspector General. 
Follow-up records are retained for 5 fiscal years from the fiscal year 
that a product's last recommendation is closed. However, sustained 
congressional attention is needed to ensure initial agency 
implementation and to prevent agencies from backsliding.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                    to Rear Admiral Michael Weahkee
    Question 1. In its 2017 report, GAO noted that insufficient 
reimbursements for health services delivered by providers outside of 
IHS led to ``gaps in services [that] sometimes delay diagnoses and 
treatments, which can exacerbate the severity of a patient's condition 
and necessitate more intensive treatment.'' The 2019 report says IHS 
has taken steps to identify providers who don't accept the Service's 
low reimbursement rates. What else is IHS doing to address this access 
question? Has IHS considered increasing reimbursements for these 
services?
    Answer. The 2017 GAO report quoted in the question explains that 
Purchased/Referred Care (PRC) funding is provided through annual 
appropriations, which has increased in recent years. However, despite 
these increases, GAO states, ``the [PRC] program is unable to pay for 
all eligible services, and that these gaps in services sometimes delay 
diagnoses and treatments, which can exacerbate the severity of a 
patient's condition and necessitate more intensive treatment.'' See GAO 
report 17-317, page 209-210, available at https://www.gao.gov/assets/
690/682765.pdf. The GAO did not identify insufficient reimbursements 
for non-IHS provided health care as the cause for the gaps in service.
    In May 2016, IHS established a regulation on capping payment rates 
for physicians. See 42 C.F.R. Part 136, Subpart I--Limitation on 
Charges for Health Care Professional Services and Non-Hospital-Based 
Care. This rule implemented a methodology and payment rates for the IHS 
PRC to apply Medicare payment methodologies to all physician and other 
health care professional services and non-hospital-based services. 
Specifically, it allows health programs operated by IHS, tribes, tribal 
organizations, and urban Indian organizations (collectively known as I/
T/U programs) to negotiate or pay non-I/T/U providers based on the 
applicable Medicare fee schedule, prospective payment system, and 
Medicare Rate in accordance with a Medicare waiver, the amount 
negotiated by a repricing agent, or the provider or supplier's most 
favored customer rate. In accordance with this new regulation, I/T/U 
programs may negotiate a higher rate with those providers that refuse 
to accept Medicare methodology for payment, using the providers most 
favored customer rate as a ceiling in most cases.

    Question 2. In view of issues faced by providers like the Paiutes 
in Nevada, IHS has started work on modernizing s its electronic health 
record system. While the Paiute clinic in my state is not an IHS 
clinic, they do utilize the electronic records system which, from their 
perspective, has been slow to see improvements. When should facilities 
expect to see positive changes or improvements to the existing HIT 
infrastructure? What is IHS doing to ensure that input from tribes 
running their own facilities is taken into account?
    Answer. The IHS uses the Resource and Patient Management System 
(RPMS) to manage clinical, financial, and administrative information in 
federal hospitals and clinics, as well as in some tribal and urban 
health programs. The RPMS is currently installed in over 400 separate 
locations and is patched by local staff who are responsible for 
maintaining the system. Enhancements are provided by IHS Office of 
Information Technology (OIT) through a combination of federal staff, 
contract developers, and shared code made available from the Department 
of Veterans Affairs through a memorandum of understanding.
    In RPMS development, requests for changes to the software are 
evaluated by informatics staff, subject matter experts, and the IHS 
Chief Medical Officer to address requested improvements, regulatory 
compliance, and audit findings. New software is released to the over 
400 locations incrementally throughout the year as individual update 
packages are released. The most recent package was released in December 
2018. In FY 2018, OIT released 110 minor enhancements and 5 
comprehensive software package releases. A new Electronic Prescribing 
of Controlled Substances package will be released in the summer of 2019 
that creates new functionality to support the IHS Opioid initiatives.
    IHS has started efforts to modernize its health information 
technology (HIT) infrastructure. This effort will include substantial 
changes to the existing RPMS, or purchasing and implementing a 
commercial option. This first step for IHS is completing the HHS 
sponsored IHS HIT Modernization Research Project that began in October 
2018 and will conclude in September 2019. The research project will 
inform IHS about the requirements and challenges that IHS needs to 
address in order to modernize its HIT system. The IHS is developing a 
modernization plan that addresses the technical design, operating plan, 
and funding strategy. The IHS will continue to support the current RPMS 
as well as develop a long-term plan to modernize and sustain its HIT 
investments.
    Additionally, the FY 2020 Budget proposes $25 million for IHS to 
begin transition to a new and modernized Electronic Health Record 
system. This funding will lay the groundwork to improve the quality of 
care, reduce the cost of care, promote interoperability, simplify IT 
service management, increase the security of patient data, enhance 
cybersecurity, and update infrastructure across rural locations to 
enable a successful Electronic Health Record transformation.
    The IHS has established and funds advisory committees composed of 
members of tribes, tribal organizations, and representatives of the 
Federal Government to ensure participation on addressing issues such as 
RPMS and the HIT modernization effort, including the Direct Service 
Tribal Advisory Committee and the Tribal Self-Governance Advisory 
Council. In addition, IHS established the Information System Advisory 
Council (ISAC) to guide the development of a co-owned and co-managed 
Indian health information infrastructure and information systems.
    With tribal partners, the ISAC examines the larger question of our 
HIT platforms. The ISAC has a chartered responsibility to make 
technology recommendations and priorities to the IHS Director. IHS 
concurrently engages in tribal consultation and urban confer to gather 
input and assist our decisionmaking process. This process has included 
several listening sessions combined with a broad array of stakeholder 
and community engagements. Feedback from the ISAC, listening sessions, 
and engagement with HHS and other Federal programs will ultimately 
converge to provide the IHS with good information to help determine a 
best path forward.

    Question 3. The report discussed the importance of appropriate and 
level staffing, particularly the need to efficiently replace key 
personnel as vacancies become apparent. Health workforce issues as a 
significant challenge across all of our rural communities. The 
President's budget that was released yesterday included ``investments 
in new programs to improve patient care through recruitment and 
retention of health care professionals.'' Please provide additional 
detail on those programs and how they will help bring health care 
providers to rural communities like those in Nevada. What actions can 
we take in Congress to help you meet those needs?
    Answer. Investments in new programs will be used to support a range 
of recruitment and retention strategies aimed to enhance and support 
the IHS mission. Initiatives include, but are not limited to, housing 
subsidies, U.S. Code Title 38 compensation, increases in the number of 
IHS loan repayment and scholarship awards, use of other Federal loan 
repayment programs, and the expansion of IHS recruitment and outreach 
activities.
    Recruitment and retention of employees is a high priority for the 
IHS. To successfully recruit and retain health care professionals, IHS 
must provide competitive employment packages. As requested in the 
Fiscal Year 2020 Budget, IHS could use housing subsidies for civilian 
health professionals that are assigned or accept staff quarters. A 
housing subsidy would be offered equivalent to the amount charged by 
General Services Administration (GSA). Health professionals not 
assigned to staff quarters would be offered housing subsidies based on 
a mileage rate of the nearest location where housing is available as 
determined by the agency. The housing subsidy is designed to offset GSA 
rental rates or to reduce the cost of commuting and renting homes in 
adjacent communities. This subsidy will be a significant tool to aid in 
the overall recruitment and retention of civilian health professionals 
and aligns with the basic allowance for housing program that is offered 
to U.S. Public Health Service Commissioned Corps officers assigned to 
the IHS.
    IHS has the delegated authority to use Title 38 of the U.S. Code, 
Chapter 74--Veterans Health Administration--Personnel, for compensation 
purposes, including IHS-developed Title 38 pay tables. IHS currently 
has ten Title 38 pay tables. Consistent with the Fiscal Year 2020 
Budget request, IHS can develop additional Title 38 pay tables or 
increase current pay. More competitive pay can help reduce IHS vacancy 
and turnover rates.
    Recruitment and retention of health care professionals is a 
challenge for IHS and other health care organizations serving rural 
locations. To address these challenges, the FY 2020 Budget for IHS 
includes legislative proposals to provide IHS discretionary use of all 
U.S. Code Title 38 personnel authorities, half-time obligations for 
loan repayment and scholarship recipients, and tax exemption for these 
recipients.

    Question 4. How did the shutdown affect your ability to address the 
challenges raised by GAO? Are there any long-term ramifications that we 
should be watching out for?
    Answer. Over the 35-day lapse in appropriations that started on 
December 22, 2018 and ended January 25, 2019, IHS continued to provide 
direct clinical health care services as well as referrals for 
contracted services that cannot be provided through IHS clinics. 
However, IHS could only perform national policy development and 
issuance, oversight, and other functions necessary to meet the 
immediate needs of the patients, medical staff, and medical facilities. 
IHS was unable to provide the majority of funds to Tribes and Urban 
Indian Health programs. The government lapse in appropriations created 
multiple disruptions to direct operations of IHS facilities including 
delay in training staff on various clinical and administrative topics, 
staffing critical clinical and administrative vacancies at IHS 
facilities, recruitment of health care professionals, facility 
maintenance and repair, and the inability to restock critical medical 
supplies and services at various health care facilities.
    In addition to the operational impacts listed here, the lapse in 
appropriations significantly impacted IHS health care team morale, 
among other psychological impacts. Employees across the Indian health 
care system were concerned about how to pay their rent, how to feed 
their families, how to pay for gas to get to work, how to pay their 
childcare costs, etc.
    Despite these setbacks, the IHS health care team is resilient, 
dedicated to our mission, and will continue to work to mitigate any and 
all impacts experienced by the government lapse in appropriations. We 
are focused on our priority and goal to provide quality care.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Tony Dearman
Elementary and Secondary Education Act Compliance
    Question 1. As part of the BIE's efforts to develop a 'state plan' 
to define standards, assessments, and accountability systems for BIE-
funded schools consistent with Section 1111 of the Elementary and 
Secondary Education Act, the Bureau established a Standards, 
Assessments, and Accountability System Negotiated Rulemaking Committee. 
The BIE's website indicated that the Committee would meet four times, 
but the recent partial government shutdown caused a delay in the final 
meeting. Will the Bureau's delay of the final meeting of the Committee 
result in any complications with completing the rulemaking process in 
time to meet the deadlines agreed upon by the Department of the 
Interior and the Department of Education?
    Answer. The partial appropriations lapse did not further delay the 
implementation of the rulemaking process. The Committee met four times 
in person and numerous times as subcommittees and in April 2019 
delivered a Final Consensus Report to the Bureau of Indian Education 
that summarizes recommendations for regulations to implement the 
unified requirements for standards, assessments, and accountability 
systems for BIE-funded schools and other aJternative requirements.
    Presently, the Bureau of Indian Education (BIE) is completing the 
rulemaking process. BIE is coordinating regularly scheduled meetings 
with the Department of Education (ED) and working with ED-funded 
comprehensive centers to ensure that ED is aware of expected 
deliverables and timelines for implementation. BIE estimates a 3-month 
review process prior to publication of the final rule. As such, BIE 
estimates publication of the Final Rule within a December 2019 to 
January 2020 timeframe. While the BIE's anticipated timeframe for full 
implementation of its standards, assessments, and accountability system 
will not occur until school year 2020-2021, ED understands that is now 
the timeframe and is providing technical assistance and recommendations 
for implementation, as well as support to BIE as it works with its 
schools to ensure that schools, tribes, and local stakeholders are 
properly notified and prepared for the planned rollout of 
implementation.

    Question 1a. When does the Bureau anticipate publishing or making 
public the recommendations of the Committee?
    Answer. The Committee's recommendations were published on the BIE 
website in April 2019 and are publicly available at https://
www.bia.gov/sites/bia.gov/files/assets/as-ia/raca/pdf/BIE-NRM-Final-
Report-V8_508.pdf.

    Question 1b. Will tribal leaders, tribal school board officials, 
BIE student families, and other relevant stakeholders have an 
opportunity to provide feedback or suggestions to improve any newly 
proposed standards, assessments, and accountability systems?
    Answer. BIE published the proposed Standards, Assessments, and 
Accountability System rule on June 10, 2019. See 84 F.R. 26785. The 
proposed rule provided 30 days for submission of public comments. In 
addition, BIE held 6 tribal consultation sessions at locations around 
the country. The BIE is currently analyzing the comments that were 
received concerning the proposed rule and anticipates publication of a 
final rule that takes those comments into consideration within three 
months. Beyond the stakeholder engagement throughout the rulemaking 
process, as the BIE develops and finalizes plans for requirements for 
standards, assessments, and accountability system, including an agency 
``State Plan'' pursuant to the final rule, BIE intends to solicit input 
from stakeholders through focus groups and consultation with Tribes and 
other stakeholders.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                      Rear Admiral Michael Weahkee
Management Accountability
    Question 1. During the hearing, I asked you about IHS's failure to 
address the widespread reports of abuse of Native American children and 
misconduct by one of its former employees, Dr. Stanley Weber. At the 
time, you could not provide me with an explanation of why IHS's allowed 
Dr. Weber to transfer from the IHS Billings Area to the IHS Great 
Plains Area after leadership became aware of his misconduct. Please 
provide the Committee with any known facts surrounding Dr. Weber's move 
from the Billings Area to the Great Plains Area;
    Answer. Dr. Weber transferred from the Billings Community Hospital 
in Browning, Montana, to the Pine Ridge Service Unit in South Dakota, 
on June 8, 1995. The Indian Health Service (IHS) is organizing an 
intensive medical quality assurance review of internal IHS past actions 
related to this provider. Questions involving historical issues and 
facts will be fully addressed through this review.

    Question 1a. Please provide the Committee with an update on IHS's 
investigation on the Dr. Weber case.
    Answer. On February 22, 2019, IHS posted a solicitation for a 
medical quality assurance review of IHS policies and procedures with 
respect to reporting allegations of sexual abuse of IHS patients by IHS 
clinical staff. IHS intended to post this solicitation much sooner, but 
the timeline was extended as a result of the lapse in appropriations 
that started on December 22, 2018 and ended January 25, 2019. IHS is 
proceeding through the required acquisition process and anticipates 
awarding a contract in May 2019. The contractor will be required to 
submit a final written report, with recommendations for improvement, to 
IHS within 180 days of the contract award date.

    Question 1b. Please provide the Committee with a description of 
current Service Area and Service Unit procedures for documenting and 
addressing federal employee misconduct, including any safeguards that 
would prevent the transfer of federal employees suspected of misconduct 
from one Service Area or Unit to another.
    Answer. IHS health care providers are Federal employees and are 
therefore required to adhere to all Federal laws, regulations, rules, 
and standards of conduct. When established standards of conduct are 
violated, or the rules of the workplace are disregarded, corrective 
action is warranted to motivate employees to conform to acceptable 
standards of behavior and prevent prohibited and/or unsafe activities. 
Depending on the level of misconduct, the preponderance of evidence to 
support the misconduct, and the nexus between the misconduct and the 
employee's job and the IHS mission, we will remove a health care 
provider that has committed any egregious and/or abusive misconduct.
    The IHS follows the Department of Health and Human Services (HHS) 
policy Chapter 5-10: Responsibility and Procedure for Reporting 
Misconduct and Criminal Offenses, which outlines policies, procedures, 
and assignments of responsibility for reporting allegations of criminal 
offenses committed at any location within IHS. The IHS reports any 
allegations of criminal misconduct to the HHS Office of Inspector 
General (OIG) and cooperates during any investigation initiated by the 
OIG. The IHS works in partnership with the OIG to ensure Area and 
Service Unit leaders are informed of any allegations of criminal 
misconduct and take any immediate actions necessary, such as removing 
an employee from the facility while an investigation is conducted.
    The IHS policy, ``Ethical and Professional Conduct of Health Care 
Providers'' (IHM Part 3, Chapter 23, established in 2004), establishes 
the policy, procedures, and responsibilities for IHS personnel, 
supervisors, and management officials regarding the conduct of health 
care providers https://www.ihs.gov/IHM/pc/part-3/p3c23/. This policy 
serves as an adjunct to, and not as a substitute for, ``The Standards 
of Ethical Conduct of Employees of the Executive Branch,'' the HHS 
``Supplemental Standards of Ethical Conduct for Employees,'' and the 
Commissioned Corps ``Standards of Conduct.''
    All IHS employees are required to complete the Notification and 
Federal Employee Anti-Discrimination and Retaliation Act (No FEAR Act) 
training. This mandatory training provides notice to federal employees 
of the rights and protections available to them under federal 
antidiscrimination, whistleblower protection, and retaliation laws. The 
course is available to all employees, on-line, through the HHS Learning 
Management System. The No FEAR Act of 2002 requires that each federal 
agency be accountable for violations of anti-discrimination and 
whistleblower protection laws and provide mandatory training to 
employees every two years and within ninety days of entering on duty 
for new employees regarding their rights under the law.
    On February 20, 2019, IHS issued a new policy, ``Protecting 
Children from Sexual Abuse by Health Care Providers'' (available at 
https://www.ihs.gov/ihm/pc/part-3/p3c20/), that expands and reiterates 
existing policy to require any IHS staff member to report any incident 
or reasonable suspicion of sexual abuse of a child by a health care 
provider directly to the proper child protective and/or law enforcement 
authorities. It also requires any IHS staff member to report any 
incident or reasonable suspicion of sexual abuse of a child directly to 
their supervisor, the Chief Executive Officer, or alert the next 
supervisor in the chain of command if the first line supervisor is the 
one suspected of child sexual abuse. The new policy specifically 
outlines a supervisor's responsibilities for protecting children from 
sexual abuse by health care providers.
    Additionally, this section also directs all IHS Staff to document a 
report they make in the IHS Incident Reporting System within five 
business days. In short, this requires all IHS employees to report any 
incident or reasonable suspicion of sexual abuse of a child by a health 
care provider that they observe or reasonably suspect.
    Allegations brought to the attention of medical staff are recorded 
in the provider's credentialing file, then evaluated and managed in 
accordance with the facility's bylaws, which adhere to the Centers for 
Medicare & Medicaid Services (CMS) Conditions of Participation. 42 
C.F.R.  482.22 (a)(2) states that medical staff must examine the 
credentials of all eligible candidates for medical staff membership and 
make recommendations to the hospital's governing body on the 
appointment of these candidates in accordance with state law, including 
scope-of-practice laws, and the medical staff bylaws, rules, and 
regulations. A candidate who has been recommended by medical staff and 
has been appointed by the governing body is subject to all medical 
staff bylaws, rules, and regulations, in addition to CMS regulations. 
Under CMS rules, the hospital's governing body is responsible for 
organization and conduct of the medical staff.
    The transfer of an IHS provider, or any IHS employee, from one IHS 
facility to another is not a valid solution for misconduct within the 
federal employee discipline system. The IHS relies on the HHS 
Instruction 752, ``Corrective Action, Discipline and Adverse Actions,'' 
dated March 20, 2009. This instruction clarifies roles and 
responsibilities for managers when addressing employee misconduct in 
the workplace. It also establishes guidance and criteria to ensure that 
corrective action is consistent with good management practices.
    For Commissioned Corps officers, reasons for transfer have not been 
tracked, and are therefore not available. In recent history, since 
2017, Corps officers at IHS who have sustained allegations of serious 
misconduct have not been permitted to transfer within the IHS and have 
been referred to Commissioned Corps Headquarters for potential adverse 
action, up to and including involuntary termination (if active duty 
service is less than 20 years) or retirement (if active duty service is 
over 20 years).
Staffing Recruitment and Retention
    Question 2. Last September, GAO released a new report on staffing 
challenges at IHS. This report confirms the concerns I raised at our 
last high risk hearing about the high clinical vacancy levels in the 
Navajo and Albuquerque Areas. It also concluded that the Service has 
trouble developing competitive salary packages and attracting new staff 
because of facility conditions. Does IHS have the resources it needs to 
offer more competitive salaries in these high-vacancy areas?
    Answer. Recruitment and retention of health care professionals is a 
challenge for IHS and other health care organizations serving rural 
locations. To address these challenges, the FY 2020 Budget for IHS 
includes legislative proposals to provide IHS discretionary use of all 
U.S. Code Title 38 personnel authorities, half-time obligations for 
loan repayment and scholarship recipients, and tax exemption for these 
recipients.
    The IHS is working with the HHS Office of the Assistant Secretary 
for Health to improve the recruitment and retention of U.S. Public 
Health Service Commissioned Corps officers using existing authorities.

    Question 2a. Are there enough human resource personnel to develop 
special pay tables for these regions?
    Answer. The IHS is committed to authorizing Title 38 pay tables, as 
necessary, to recruit and retain quality medical providers. Currently, 
there are ten IHS Title 38 pay tables. Additional OHR staff would be 
needed to develop and manage a larger number of pay tables.

    Question 2b. Do you agree with the report's conclusion that aging 
facilities and medical equipment frustrate the Service's recruitment 
efforts?
    Answer. There are specific instances in which the age of our 
facilities and outdated medical equipment have been pointed to as 
factors in candidates' decisions not to pursue employment with our 
Agency. In addition, other contributory factors include remote 
locations, lack of suitable housing options, family requirements, 
spousal employment opportunities, and local amenities.

    Question 2c. Are there any Office of Management and Budget employee 
rules and regulations that limit the ability of the Service to recruit 
and retain clinical personnel (e.g., prohibitions on utilizing three 
day, 12-hour shift schedules commonly utilized in the healthcare 
industry for nurses)?
    Answer. The IHS is not aware of any Office of Management and Budget 
employee rules and regulations that limit our ability to recruit and 
retain clinical personnel. IHS has the authority to use U.S. Code Title 
5 (Government Organization and Employees) and Title 38 (Veterans' 
Benefits) work schedules for our clinical personnel. Under Title 38, 
there is flexibility for clinical personnel work schedules to include 
the Baylor plan for nurses (i.e., 24 hours over a weekend equals a 40 
hour schedule).
    The challenge comes with the additional administrative burden 
required by the IHS to exercise the Title 38 authorities that have been 
delegated to HHS. Currently, the Agency must submit individual requests 
to exercise a specific authority delegated to the Department, which in 
some cases requires months of work to develop and justify the request. 
This work would be alleviated with the direct delegation of Title 38 
authority to the Agency.
    IHS does not have the authority to use Title 38 for employee leave 
of absence, e.g., annual leave accrual. However, the Department of 
Veterans Affairs provides an automatic one day of annual leave accrual 
per pay period for physicians, dentists, podiatrists, and optometrists 
regardless of their work history. Nurses, nurse anesthetists, physician 
assistants, and expanded-function dental auxiliaries also earn eight 
hours of annual leave per pay period under Title 38.

                                  [all]
</pre></body></html>
